No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
CHRISTOPHER TAYLOR, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Appellate Court Of Illinois
______________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________
JAMES E. CHADD
State Appellate Defender
DOUGLAS R. HOFF
Deputy Defender
MICHAEL C. BENNETT
Counsel of Record
Supervisor
Office of the State Appellate Defender
First Judicial District
203 N. La Salle St., 24th Floor
Chicago, IL 60601
(312) 814-5472
1stDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of counsel:
Gilbert C. Lenz
Assistant Appellate Defender

QUESTION PRESENTED FOR REVIEW
Whether a defendant is denied his Sixth Amendment right to be confronted
with the witnesses against him where a court admits into evidence a certified
autopsy report, without requiring the State to present the testimony of the author,
and the State then relies on the author’s observations, not just to show cause of
death, but as the sole evidence supporting its argument that the defendant fired
two shots, where the defendant consistently denies firing two shots, where his
denial is supported by each eyewitness and the physical evidence, and where the
State’s two-shot theory is crucial to its argument that the defendant committed
knowing murder and not a lesser offense.

i

TABLE OF CONTENTS
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statement of Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Constitutional and Statutory Provisions Involved . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Reasons for Granting the Petition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
I.

The introduction of the autopsy report in this case, without a
showing of the author’s unavailability and with no opportunity
to cross-examine the author, violated the Confrontation Clause.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

II.

The division among state high courts and federal appeals courts
on the question of whether autopsy reports are testimonial has
only deepened in recent years. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

III.

This case constitutes an appropriate vehicle for this Court to
address this important and divisive question. . . . . . . . . . . . . . . . . . . . 23

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
INDEX TO APPENDIX
APPENDIX A: Illinois Appellate Court unpublished order affirming conviction and
sentence, reported at People v. Taylor, 2019 IL App (1st) 150628-U.
APPENDIX B: Illinois Appellate Court order denying petition for rehearing.
APPENDIX C: Illinois Supreme Court order denying petition for leave to appeal,
reported at __ N.E.3d __, 2020 WL 2779619, entered May 27, 2020.

ii

TABLE OF AUTHORITIES
Page
Federal Cases:
Williams v. Illinois, 567 U.S. 50 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Melendez-Diaz v. Massachusetts, 557 U.S. 305 (2009) . . . . . . . . . . . . . . . . . . . passim
Crawford v. Washington, 541 U.S. 36 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13, 17
Bullcoming v. New Mexico, 564 U.S. 647 (2011) . . . . . . . . . . . . . . . . . . . . . . 4, 14, 21
Stuart v. Alabama, 136 S. Ct. 36 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Ignasiak, 667 F.3d 1217 (11th Cir. 2012) . . . . . . . . . . . . . . . . . 4, 23
United States v. James, 712 F.3d 79 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . 4, 17, 23

State Cases:
People v. Leach, 2012 IL 111534 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
People v. Taylor, 2019 IL App (1st) 150628-U . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
State v. Navarette, 294 P.3d 435 (N.M. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . passim
State v. Hutchison, 482 S.W.3d 893 (Tenn. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
State v. Medina, 306 P.3d 48 (Ariz. 2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
People v. Dungo, 286 P.3d 442 (Cal. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18, 22
Commonwealth v. Brown, 185 A.3d 316 (Pa. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . 18
State v. Kennedy, 735 S.E.2d 905 (W.Va. 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Henriquez v. State, 580 S.W.3d 421 (Tex. App. Houston 2019) . . . . . . . . . . . . . . . . 19
Lee v. State, 418 S.W.3d 892 (Tex. App. Houston 2013). . . . . . . . . . . . . . . . . . . 19, 22

iii

Constitutional Provisions:
U.S. Const. amend VI. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Statutes:
28 U.S.C. §1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
55 ILCS 5/3-3013(a) (West 2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Miscellaneous:
Michael S. Pardo, Confrontation after Scalia and Kennedy, 70 Ala. L. Rev. 757
(2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 18
Marc D. Ginsberg, The Confrontation Clause and Forensic Autopsy Reports, 74 La.
L. Rev. 117 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 18

iv

No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
CHRISTOPHER TAYLOR, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Appellate Court Of Illinois
______________________________________
The petitioner, Christopher Taylor, respectfully prays that a writ of certiorari
issue to review the judgment below.

OPINION BELOW
The unpublished decision of the Illinois Appellate Court is reported at People
v. Taylor, 2016 IL App (1st) 150628-U, and is attached as Appendix A. (App. A). A
copy of the order denying rehearing is attached as Appendix B. (App. B). The order
of the Illinois Supreme Court denying leave to appeal is reported at 2020 WL
2779619, and is attached as Appendix C. (App. C).

-1-

JURISDICTION
The judgment of the Illinois Appellate Court, First District, was entered on
December 13, 2019. A timely petition for rehearing was denied on January 10,
2020. The Illinois Supreme Court denied a timely petition for leave to appeal on
May 27, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

CONSTITUTIONAL PROVISION INVOLVED
The Sixth Amendment to the United States Constitution provides, in
relevant part: “In all criminal prosecutions, the accused shall enjoy the right ... to
be confronted with the witnesses against him.” U.S. Const. amend VI.

INTRODUCTION
This case presents the questions of whether, and when, an autopsy report
may be testimonial hearsay, triggering the protections of the Confrontation Clause.
In the early morning hours of June 20, 2007, Christopher Taylor (Chris) was
standing in an empty parking lot with his cousin Devon Patton (Devon) and their
friends Duane Smith (Duane) and Derico Fitch (Rico). All four men had been
drinking. Chris and Rico got into a heated argument. In his video-recorded,
custodial statements to law enforcement, Chris said he pulled a semi-automatic
handgun during the argument, but did not point it at Rico. Rico moved toward
Chris and reached for the gun, at which point the gun fired and the bullet struck
Rico, who fell and later died. Chris consistently denied that he intended to shoot
Rico and consistently denied that he pulled the trigger twice. Chris’s denial that he

-2-

fired two shots was corroborated by Devon and Duane, who each testified to hearing
only one shot. And the police found only one spent casing in the parking lot.
The State charged Chris with knowing first-degree murder. At Chris’s
request, the court instructed the jury on reckless involuntary manslaughter, and
Chris argued the evidence only proved, at most, that he acted recklessly.
The State’s primary counter-argument was that Chris fired two shots and
thus committed knowing murder. The only evidence supporting the State’s two-shot
theory was rooted in the medical examiner’s written autopsy report. Specifically,
over Chris’s Confrontation Clause objection, the State introduced into evidence the
certified autopsy report, which indicated Rico died from a gunshot wound to his
torso, and had another gunshot wound to his upper left arm. The medical examiner
did not make a written finding as to whether these two gunshot wounds could only
have been caused by two bullets. Also over objection, however, the jury heard the
purported opinion of the medical examiner that two shots were fired when the
prosecutor who interviewed Chris on video said, “[W]e know from the autopsy [that]
you had to pull the trigger twice” because “the bullet wounds on Rico don’t line up.”
Finally, and again over objection, the State presented the testimony of a different
medical examiner who reviewed the autopsy report and told the jury Rico’s wounds
could not have been caused by one bullet. The State never had to show the original
medical examiner was unavailable to testify and Chris never had the opportunity to
cross-examine her as to her methods, the accuracy of her observations, her contact
with law enforcement before the autopsy, or her possible bias.
Following the Illinois Supreme Court’s decision in People v. Leach, 2012 IL

-3-

111534, the appellate court affirmed Chris’s conviction, holding that autopsy
reports performed in the normal course of business are always “nontestimonial,”
and thus do not trigger the Confrontation Clause. An autopsy report may be
testimonial in Illinois only when the autopsy is performed at the direction of law
enforcement, or when the autopsy report “target[s]” the defendant. (App. A 29-33).
Since Crawford v. Washington, 541 U.S. 36 (2004), this Court has held that a
forensic analyst’s report may be testimonial in some cases. Melendez-Diaz v.
Massachusetts, 557 U.S. 305 (2009); Bullcoming v. New Mexico, 564 U.S. 647
(2011); Williams v. Illinois, 567 U.S. 50 (2012). But this Court has never addressed
the specific questions of whether, and when, an autopsy report may be testimonial.
As the appellate court noted in this case, (App. A 33), there is a “split of opinion”
among federal and state courts on these questions, particularly after this Court’s
fractured decision in Williams. See, e.g., United States v. Ignasiak, 667 F.3d 1217,
1232 (11th Cir. 2012) (autopsy reports are testimonial because they are “made
under circumstances which would lead an objective witness reasonably to believe
that the statement would be available for use at a later trial”); United States v.
James, 712 F.3d 79, 99 n.11 (2d Cir. 2013) (autopsy report not testimonial because
“it was not prepared primarily to create a record for use at a criminal trial,”
distinguishing Ignasiak based on whether the medical examiner’s office in the
pertinent jurisdiction is designated as part of “law enforcement”).
This case, involving a preserved claim where there was no finding of
harmless error below, represents an appropriate vehicle for this Court to address
the sharp division among the lower courts over this important question.

-4-

STATEMENT OF THE CASE
Jury Trial
Christopher Taylor was charged with knowing first-degree murder in the
shooting death of Derico Fitch on June 20, 2007.
Prior to trial, Chris asked the court to redact certain statements by the
prosecutor during one of his video-recorded interviews, including a statement
purporting to relay the opinion of the medical examiner as to how many shots were
fired. The court did not redact the video, but instructed the jury that the statements
by the prosecutor were not evidence.
A few days before trial, the State informed Chris it would not call the medical
examiner who performed Rico’s autopsy, Dr. Arangelovich, but would instead call
Dr. Zukariya to give his opinion based on Dr. Arangelovich’s report. Then, during
opening statements, the State told the jury they would hear Dr. Zukariya testify
that Rico was struck by two bullets, not one, and that this was evidence of Chris’s
intent to commit murder. Chris filed a motion after this opening statement asking
that the State be required to present Dr. Arangelovich, since the State was going to
argue Taylor fired two shots, not one, and this theory was based entirely upon Dr.
Arangelovich’s observations. Chris argued the autopsy report was “testimonial”
under these circumstances, and that his right to confrontation would be violated if
Dr. Arangelovich did not testify. The court denied the motion.
The State presented two eyewitnesses: Devon Patton and Duane Smith. They
were both drinking with Chris in front of his uncle’s house on June 19, 2007. Rico
arrived and criticized them for not being prepared if someone approached. Rico and

-5-

Chris began arguing and Chris’s uncle asked them to leave.
Duane testified that he and Devon followed Rico across the street into a
parking lot, and he briefly lost sight of Chris. Chris then rejoined the group and he
and Rico began arguing again. Duane stood next to Rico and Devon stood next to
Chris. Rico pushed Duane away and Chris pushed Devon away. Duane then heard
“a shot” and saw Chris holding a gun at a downward angle. Duane and Devon ran
away briefly, then returned. Duane saw Chris run toward a nearby building and
lost sight of him. Duane did not know what Chris did with the gun and did not see
him holding the gun when he ran away. When Duane returned to Rico, Chris was
already there. Chris asked for Duane’s shirt, then used it to try to stop Rico’s
bleeding. Duane later told the police Chris shot Rico.
Devon testified that he and Duane tried to separate Chris and Rico in the
parking lot. Devon tried to hold Rico back, but let go when Rico told him to. Devon
then tried to hold Chris back, but Chris pushed him away. Devon saw Chris point a
gun “forward,” then “heard a shot.” After “the shot,” Devon ran across the street and
did not see what Chris did with the gun.
Detective Escalante testified that he talked to Chris at the police station at
3:30 a.m. on June 20, 2007. Chris said he was standing outside his uncle’s house
with Duane, Devon, and Rico when another man approached, shot Rico, and fled.
At 8:30 p.m. on June 21, 2007, Detectives Escalante and Crocker conducted a
video-recorded interview of Chris. In this video, Chris said he was drinking with
Duane and Devon outside his uncle’s house on June 19, 2007. Rico arrived and was
angry at them for not being ready if someone approached with a gun. Rico and

-6-

Chris started arguing, then Rico “walked up to” Chris and Chris “pushed him back.”
Duane and Rico crossed the street into the parking lot, then Chris followed and he
and Rico continued “yelling at each other.” Chris and Rico were standing “face to
face,” with Devon next to Chris and Duane next to Rico. Chris “started laughing,”
but Rico “was still serious.” Devon got between them and Chris turned away.
Detective Escalante asked Chris why he pulled a gun. Chris said, “I wasn’t
meaning to ... ,” and, “It wasn’t intentionally to ... .” Chris said Rico “came close” to
him and there was “a tussle thing.” Chris agreed with Escalante’s description that
he and Rico went “back and forth, grabbing, [and] the gun goes off.” Chris said he
pulled a gun from his pocket and pointed it “towards the ground” to show Rico he
was ready if someone approached. Rico “reached for” Chris and the gun “went off.”
Chris “heard just one shot.” When Escalante said Rico had been shot twice, Chris
explained that the man who sold him the gun described it as a “lemon squeezer”
that fires two shots with one trigger-pull. Chris said he did not intend to shoot Rico.
Chris told Escalante he dropped the gun in the parking lot and ran across
the street. He did not know what happened to the gun. Chris then returned to Rico,
asked Duane for his shirt, and held the shirt against Rico’s wound, telling him to
“stay woke, stay woke.” Chris again said, “I wasn’t trying to, you know, hurt him. ...
I didn’t want to hurt him.” Chris concluded by saying, “I’m sorry. I never meant for
none of this to happen ... . I’m just really sorry.”
The State called Assistant State’s Attorney (ASA) Nick D’Angelo, who
recorded a second statement from Chris later the same night. After a limiting
instruction, the court allowed the State to play the entirety of this video. Chris’s

-7-

statement to D’Angelo was essentially the same as his statement to Escalante – the
group had been drinking, Chris had a gun he called a “lemon squeezer,” and he
denied shooting Rico intentionally.
At that point, ASA D’Angelo told Chris “we know ... from the autopsy that
took place today” there were two shots, so “you had to pull the trigger twice.” When
Chris repeated that the gun was a “lemon squeezer” that fired two shots with one
trigger-pull, D’Angelo replied:
But that can’t happen. We talked to the people at the lab, okay, and
they say it can’t happen, okay. And the bullet wounds on Rico don’t
line up ... . So you had to pull the trigger twice.
Chris again denied pulling the trigger twice.
A firearms expert testified that a semi-automatic handgun fires one bullet
per trigger-pull, unless it has been modified to be “fully automatic,” which she had
never seen. She also testified that a “lemon squeezer” is a particular type of
revolver, and agreed that if someone described a semi-automatic handgun as a
“lemon squeezer,” he was using that phrase to mean something else.
The police found a blue shirt and a .40-caliber casing in the parking lot. They
also found a nine-millimeter bullet, but the State agreed this bullet was not fired
during this incident.
Assistant Medical Examiner (AME) Valerie Arangelovich performed Rico’s
autopsy on June 20, 2007, and wrote an autopsy report that was certified on August
15, 2007, but did not testify. AME Eimad Zukariya testified and gave his opinions
based on Dr. Arangelovich’s report. He found Rico had two gunshot wounds: one
fatal wound from a shot fired at close range that entered his right chest and exited

-8-

his lower left back, and one wound from a bullet that entered the back of his upper
left arm and exited the inside of his upper left arm. He did not believe these
wounds could have been caused by one bullet. On cross-examination, defense
counsel asked if it was possible that Rico’s “arm was up as though [he] had just
jerked away from something when somebody shot” him. Dr. Zukariya said, “It could
be. I can’t say.”
In its closing and rebuttal arguments, the State repeatedly asserted that its
evidence showed Taylor fired two shots. In rebuttal argument, specifically, the
prosecutor called the jury’s attention to ASA D’Angelo’s statement in the video that
Chris “couldn’t have shot once” because “[t]here’s two bullet wounds on him.”
The jury found Taylor guilty of first-degree murder.
In his motion for new trial, Chris argued, inter alia, that the court erred in
admitting ASA D’Angelo’s video-recorded statement purporting to relay the opinion
of the medical examiner, and that the court violated the Confrontation Clause when
it did not require the State to present the author of the autopsy report. The court
denied the motion and sentenced Chris to a prison term of 50 years.
Appeal
On appeal, Chris argued, inter alia, that the trial court violated his right to
be confronted with the witnesses against him when it allowed the State to introduce
Dr. Arangelovich’s autopsy report without requiring the State to present her for
cross-examination, where her written observations were the sole basis for the
State’s theory that Chris fired two shots. Chris argued this Confrontation Clause
violation was particularly prejudicial in his case because the State presented a

-9-

different expert who supported the State’s two-shot theory, but whose opinion
rested entirely upon Dr. Arangelovich’s written findings, and because the State was
even allowed to present Dr. Arangelovich’s own purported opinion that two shots
were fired through the hearsay statement of the prosecutor who interviewed Chris.
The appellate court, following the Illinois Supreme Court’s leading opinion in
Leach, found that the dispositive question was whether the autopsy report was
“testimonial.” (App. A 30-31) (citing People v. Leach, 2012 IL 111534, ¶ 120). The
court held that an autopsy report is only testimonial where its “primary purpose” is
to accuse a “targeted individual” or to provide evidence in a criminal case. (App. A
31) (citing Leach, 2012 IL 111534, ¶¶ 122, 133). Because the autopsy in this case
“was not performed at the direction of the police” and did not “target” Chris, the
court found Dr. Arangelovich’s report was not testimonial, even though “the State
was allowed to use the autopsy report to support its two-shot theory.” (App. A 3132). In doing so, the court noted that in Leach, the Illinois Supreme Court
recognized “the split of opinion regarding the application of the primary purpose
test to reports of forensic testing.” (App. A 33). Because the appellate court found no
Confrontation Clause violation, it made no finding as to whether any such error
was harmless. (App. A 33).

-10-

REASONS FOR GRANTING CERTIORARI
Federal courts of appeals and state high courts are sharply divided over the
question of whether an autopsy report introduced at a murder trial may constitute
“testimonial” hearsay, triggering the protections of the Confrontation Clause. And
even if, as most courts recognize, an autopsy report may be testimonial under some
circumstances, courts are even more divided as to what those circumstances might
be. See, e.g., Michael S. Pardo, Confrontation after Scalia and Kennedy, 70 Ala. L.
Rev. 757, 778-79 (2019); Marc D. Ginsberg, The Confrontation Clause and Forensic
Autopsy Reports, 74 La. L. Rev. 117, 135-66 (2013) (both detailing the conflict
among federal and state courts as to whether, and when, an autopsy report is
testimonial).
The holding of the Illinois court in this case only perpetuates this conflict.
Indeed, the divide is so great at this point that the Confrontation Clause simply
means different things in different jurisdictions. Compare People v. Taylor, 2019 IL
App (1st) 150628-U, ¶¶ 132-36, attached at (App. A 31-33) (autopsy report not
testimonial where it did not target defendant, even where State argued written
findings refuted defendant’s claim he fired only one shot); with State v. Navarette,
294 P.3d 435, 437-43 (N.M. 2013) (although autopsy report did not target
defendant, it was testimonial because, in part, the State argued the report refuted
defendant’s claim that someone else was the shooter).
This case is an ideal vehicle for addressing this long-simmering issue. The
certified autopsy report was introduced into evidence, with no opportunity for
Christopher Taylor to cross-examine its author, and the State argued the autopsy

-11-

report proved Chris fired two shots, refuting his statement to the contrary. This
claim is also fully preserved, and the decision below rests solely upon a finding that
the autopsy report was not testimonial, without reaching the question of whether
any Confrontation Clause violation was harmless.
This Court should grant certiorari.

I.

The introduction of the autopsy report in this case, without a
showing of the author’s unavailability and without Christopher
Taylor having the opportunity to cross-examine the author, violated
the Confrontation Clause.
In his video-recorded statements, Christopher Taylor consistently denied he

intended to kill Derico Fitch and consistently denied he fired two shots. In its effort
to prove Chris fired two shots, the State introduced Dr. Arangelovich’s autopsy
report into evidence. The State did not call her to the stand, but it did present the
jury with her purported opinion that two shots were fired through statements by
the prosecutor who interviewed Chris on video. Then the State called Dr. Zukariya,
who gave his opinion that Rico was struck by two bullets, but whose opinion was
entirely based upon Dr. Arangelovich’s written observations. The court allowed all
of this over Chris’s objection. Chris never had the opportunity to cross-examine Dr.
Arangelovich about her methods, the accuracy and significance of her findings, or
any contact she had with law enforcement before the autopsy. Then the State
argued that Dr. Arangelovich’s autopsy report proved Chris fired two shots,
refuting his statements to the contrary and contradicting both the eyewitness
testimony and the physical evidence. The State’s two-shot theory was crucial to its
argument that Chris committed knowing first-degree murder, not reckless
-12-

involuntary manslaughter.
The State thus used Dr. Arangelovich’s written report not only to prove cause
of death, which was not in dispute, but also to prove the contested fact that Chris
fired two shots. That is, Dr. Arangelovich bore testimony against Chris through her
autopsy report, and Chris never had the opportunity to cross-examine her.
This is the prosecutorial practice rejected by Crawford v. Washington, 541
U.S. 36 (2004). There, the trial court admitted the recorded statement of a witness
without requiring the prosecution to present that witness for cross-examination.
The prosecution played the recording for the jury, then argued in closing that it
constituted evidence that refuted the defendant’s claim of self-defense. 541 U.S. at
40-41. This Court found the recording constituted testimonial evidence, triggering
the Sixth Amendment’s guarantee to the defendant either to be confronted with the
declarant or to a showing of unavailability and a prior opportunity to crossexamine. Id. at 59, 68. Crawford declined to define “testimonial” in specific terms,
but generally defined testimonial statements as those “that were made under
circumstances which would lead an objective witness reasonably to believe that the
statement would be available for use at a later trial.” Id. at 51-52. This Court
remanded for a new trial because “cross-examination might well have undermined”
the weight the jury accorded to the declarant’s testimony, finding the error
particularly serious where the prosecutor argued the statements at issue refuted
the defendant’s claim of self-defense. Id. at 67.
This Court’s application of Crawford to written reports by forensic analysts
reinforces Chris’s claim. In Melendez-Diaz v. Massachusetts, 557 U.S. 305 (2009),

-13-

the trial court allowed the prosecution to introduce written reports from an expert
concluding the substance at issue was cocaine, without presenting that expert or a
substitute expert. 557 U.S. at 308. This Court found the notarized certificates at
issue were “functionally identical” to a direct examination of the analyst, thus
triggering the defendant’s right to cross-examine that analyst. Id. at 310-11.
Likewise, Melendez-Diaz found a reasonable analyst would have believed the
certificates would be used at a criminal trial. Id. at 311. In doing so, this Court
rejected the argument that the analyst’s reports were not testimonial because they
did not specifically target the defendant. Rather, the analyst was a witness against
the defendant because the evidence in the reports constituted “one fact necessary
for [the defendant’s] conviction.” Id. at 313. And again, the violation of the
defendant’s right to confrontation required reversal based on what crossexamination may have revealed. Id. at 320; see also Bullcoming v. New Mexico, 564
U.S. 647, 664-65 (2011) (non-testifying analyst’s unsworn report was testimonial,
and testimony of substitute expert did not cure Confrontation Clause violation).
This Court’s fractured decision in Williams v. Illinois, 567 U.S. 50 (2012),
does not support the Illinois court’s finding in this case that the autopsy report was
not testimonial. That is because a majority of this Court in Williams rejected the
notion that an out-of-court statement cannot be testimonial unless the primary
purpose of the declarant was to specifically target the defendant. Compare 567 U.S.
at 84 (plurality opinion’s “primary purpose” test), with id. at 114-16 (Thomas, J.,
concurring in the judgment), and id. at 123 (Kagan, J., dissenting, joined by Scalia,
Ginsburg, and Sotomayor, JJ.) (both rejecting plurality’s primary purpose test).

-14-

Likewise, while the Williams plurality found the DNA analyst’s report was
not testimonial, that was due, in part, to the fact that the report was never
introduced into evidence, which distinguished Williams from both Melendez-Diaz
and Bullcoming, as well as this case. Id. at 79. The plurality also emphasized that
Williams involved a bench trial rather than a jury trial, another fact that
distinguishes Williams from Melendez-Diaz, Bullcoming, and this case. Id.
In its leading decision on autopsy reports and the Confrontation Clause, the
Illinois Supreme Court initially cited two tests from Williams: 1) under the
plurality opinion, whether the report was “prepared for the primary purpose of
accusing a targeted individual,” or 2) under the test favored by five Justices in
Williams, whether the report was prepared “for the primary purpose of providing
evidence in a criminal case.” People v. Leach, 2012 IL 111534, ¶ 122. In practice,
however, the Illinois Supreme Court only applied the test from the Williams
plurality opinion, and required that the autopsy report link the defendant to the
crime or “directly accuse” the defendant before it may be considered testimonial. Id.
at ¶ 132. While purporting to apply the Williams majority test as well, Leach found
the autopsy report was not testimonial, but did so because the medical examiner
“was not acting as an agent of law enforcement” and because “these reports are not
usually prepared for the sole purpose of litigation.” Id. at ¶¶ 129-30 (emphases
added). That reasoning was not consistent with the majority test in Williams. See
567 U.S. at 135 (Kagan, J., dissenting) (proper test is “whether a statement was
made for the primary purpose of establishing past events potentially relevant to
later criminal prosecution—in other words, for the purpose of providing evidence. ...

-15-

None of our cases has ever suggested that, in addition, the statement must be
meant to accuse a previously identified individual ... .”) (quotation and citations
omitted, emphases added).
The Illinois Supreme Court was “not prepared to say” that autopsy reports
are never testimonial. Leach, 2012 IL 111534, ¶ 136. Instead, an autopsy report
“should be deemed testimonial only in the unusual case in which the police play a
direct role (perhaps by arranging for the exhumation of a body to reopen a ‘cold
case’) and the purpose of the autopsy is clearly to provide evidence for use in a
prosecution.” Id. at ¶ 133. The court did not explain how police arranging for the
exhumation of a body for delivery to the medical examiner is any more “direct” than
their role in a more typical case where they find a body and arrange for its delivery
to the medical examiner. And the court’s exception for autopsies whose “purpose ...
is clearly to provide evidence” in a criminal case is no exception at all, given that
Leach also held, in essence, that autopsy reports are non-testimonial per se: “an
autopsy report prepared in the normal course of business ... is not rendered
testimonial merely because the assistant medical examiner ... is aware that police
suspect homicide and that a specific individual might be responsible.” Id. at ¶ 136.
Practically speaking, therefore, autopsy reports in Illinois are never testimonial.
That conclusion is borne out by the appellate court’s decision in this case. Dr.
Arangelovich performed the autopsy before Chris’s arrest, but she signed her report
and had it certified weeks after Chris was charged. And, of course, she was aware
that Rico was killed by a gunshot. There can be little question that a reasonable
declarant in Dr. Arangelovich’s position would have known the primary purpose of

-16-

her report was to establish past events potentially relevant to a criminal
prosecution. Williams, 567 U.S. at 135 (Kagan, J., dissenting); Crawford, 541 U.S.
at 51-52; cf. United States v. James, 712 F.3d 79, 99 (2d Cir. 2013) (autopsy report
non-testimonial, in part, because autopsy performed after death and signed six
months later, before any homicide investigation began in that case).
The autopsy report here was arguably testimonial on these facts alone, but
any doubt should be erased by the way the State used it against Chris. The court
never required the State to show Dr. Arangelovich was unavailable to testify (and it
could not have, given that she was working in the Medical Examiner’s office of a
nearby county at the time of Chris’s trial). The State simply chose not to call her.
Then the State presented a different expert who supported its two-shot theory, but
whose opinion rested entirely upon Dr. Arangelovich’s written statements. And the
State even presented the jury with evidence of Dr. Arangelovich’s own opinion that
Rico was struck by two bullets, through the hearsay statements of the prosecutor
who interviewed Chris (“we know ... from the autopsy that ... the bullet wounds ...
don’t line up”). Then, finally, the State argued that Dr. Arangelovich’s written
report, and the evidence that was solely based upon that report, constituted proof
that Chris fired two shots, not one. See Crawford, 541 U.S. at 67 (State’s argument
that statements at issue refute the defense theory is relevant to a Confrontation
Clause analysis). Dr. Arangelovich, in short, bore testimony against Chris, who had
no opportunity to cross-examine her. That violated the Confrontation Clause.

-17-

II.

The division among state high courts and federal appeals courts on
the question of whether autopsy reports are testimonial has only
deepened in recent years.
It is well-documented that federal and state courts have offered widely

divergent answers to the question of whether autopsy reports are testimonial. See,
e.g., Michael S. Pardo, Confrontation after Scalia and Kennedy, 70 Ala. L. Rev. 757,
778-79 (2019) (“Courts around the country have divided sharply on the question of
whether autopsy reports are testimonial and thus subject to confrontation
requirements,” collecting cases demonstrating split in authority); Marc D. Ginsberg,
The Confrontation Clause and Forensic Autopsy Reports, 74 La. L. Rev. 117, 135-66
(2013) (same); People v. Leach, 2012 IL 111534, ¶¶ 134-36 (collecting cases and
urging this Court to address “the confusion regarding application of the primary
purpose test to reports of forensic testing”).
Purporting to apply Williams, several state high courts have come down on
either side of this divide. For example, like the Illinois Supreme Court in Leach, the
following cases found autopsy reports to be non-testimonial: State v. Hutchison, 482
S.W.3d 893, 904-14 (Tenn. 2016); State v. Medina, 306 P.3d 48, 62-64 (Ariz. 2013)
(both recognizing Williams offered no binding rule, but holding autopsy reports
were non-testimonial under the Williams plurality opinion and Justice Thomas’s
concurrence); People v. Dungo, 286 P.3d 442, 447-69 (Cal. 2012) (with two Justices
dissenting, and two separate concurrences, majority found autopsy report nontestimonial, in part, because report not admitted into evidence, unlike this case).
On the other side, the cases finding autopsy reports to be testimonial include:
Commonwealth v. Brown, 185 A.3d 316, 324-29 (Pa. 2018) (autopsy report

-18-

testimonial because primary purpose of report following violent death is to “prove
past events potentially relevant to a later criminal prosecution”); State v. Navarette,
294 P.3d 435, 437-43 (N.M. 2013) (discussed infra); State v. Kennedy, 735 S.E.2d
905, 920-22 (W.Va. 2012) (under Williams, “it is not difficult to surmise that a true
majority of [this] Court” would find a Confrontation Clause violation where
testifying medical examiner acted as “mere conduit” for author of autopsy report);
see also Henriquez v. State, 580 S.W.3d 421, 428-29 (Tex. App. Houston 2019)
(collecting appellate court opinions for principle that autopsy reports in Texas are
testimonial because an objective author would reasonably believe report would be
used at a later trial) (citing, inter alia, Lee v. State, 418 S.W.3d 892, 897 (Tex. App.
Houston 2013) (Confrontation Clause guarantees a defendant the right to impugn
the credibility of the medical examiner who performed the autopsy)).
Such a split in authority might be expected where this Court had established
that the question be answered on a case-by-case basis, and had offered some
guidance as to the factors to be considered in a given case. In that situation, the
divergent results could solely result from the unique facts of each case. But the split
in authority on this question has as much, or more, to do with the absence of
guidance from this Court as it does with the factual differences between the cases.
See Stuart v. Alabama, 136 S. Ct. 36 (2018) (Gorsuch, J., joined by Sotomayor, J.,
dissenting from denial of certiorari) (Williams has “sown confusion in courts across
the country”).
To take just one example, a comparison of Illinois cases – both Leach and the
appellate court’s decision in this case – with the Navarette decision from the New

-19-

Mexico Supreme Court shows that the Confrontation Clause means something
different in each state. As in Illinois, the medical examiner in New Mexico was
statutorily required to perform the autopsy at issue. Navarette, 294 P.3d at 440.
And as in this case, the prosecutors in Navarette relied upon the medical examiner’s
written findings not only to prove cause of death, but also to refute the defendant’s
theory that someone else was the shooter. Id. at 437, 442-43. This was based on the
medical examiner’s findings as to how far the gun was from the victim when it was
fired, just as the State here used Dr. Arangelovich’s descriptions of Rico’s gunshot
wounds as the sole evidence supporting its theory that Chris fired two shots.
Under these circumstances, Navarette held that the defendant must have an
opportunity to subject the author of the autopsy report to cross-examination, even
where the report was not admitted into evidence and the State presented the
testimony of a different expert. 294 P.3d at 443.1 If it was “axiomatic” that the
original autopsy report in Navarette was testimonial, id. at 440, then the same
must be true here, where the State introduced Dr. Arangelovich’s report into
evidence, then argued that her written observations refuted Chris’s claim that he
only fired one shot. The only difference is that in New Mexico the State’s use of an
autopsy report triggers the protections of the Confrontation Clause because its
author “made the statements ... primarily intending to establish some facts or
opinions with the understanding that they may be used in a criminal prosecution,”
1

The New Mexico Supreme Court approvingly cited an appellate court case
finding an autopsy report testimonial where it was introduced into evidence.
Navarette, 294 P.3d at 440 (citing State v. Jaramillo, 272 P.3d 682, 686 (N.M. App.
Ct. 2010)). Autopsy reports are thus testimonial in New Mexico, regardless of
whether the report was admitted into evidence.
-20-

while in Illinois, “autopsy reports prepared by a medical examiner’s office in the
normal course of its duties are nontestimonial” regardless of the primary purpose of
the report. Id.; Leach, 2012 IL 111534, ¶ 136. It cannot be that the Confrontation
Clause means such wildly divergent things across state borders. This Court should
resolve this conflict.
And in doing so, this Court should clarify that cases like Navarette have it
right: where the State relies upon an autopsy report to prove a disputed fact,
whether that be cause of death or some other fact relevant to the defendant’s
culpability, the Confrontation Clause requires that the defendant have the
opportunity to cross-examine the author of the report about, inter alia, methods,
accuracy, and bias. Indeed, this Court has already held that written reports by
forensic analysts fall within the “core class of testimonial statements” that trigger
the protections of the Confrontation Clause. Melendez-Diaz v. Massachusetts, 557
U.S. 305, 310 (2009). This was because the author of a laboratory report identifying
a substance as cocaine would reasonably believe the findings may be used at a later
trial, and the findings in the report essentially constitute a direct examination of
the author. Id. at 310-11; see also Bullcoming v. New Mexico, 564 U.S. 647, 658-65
(Confrontation Clause applies to written finding of blood-alcohol content in DUI
case because the author was a witness against the defendant).
There is no qualitative difference between autopsy reports and the forensic
reports in Melendez-Diaz and Bullcoming justifying the divergent treatment
autopsy reports receive in states like Illinois. As in those cases, the autopsy here
was performed by an analyst who received the evidence from law enforcement, who

-21-

was statutorily required to perform the autopsy, and who submitted a certified
report of her findings to law enforcement. (App. A 31) (citing 55 ILCS 5/3-3013(a)
(West 2012) (medical examiner must conduct investigation into violent death)).
And medical examiners are no more immune than other forensic analysts to
the various forms of human error cited by Melendez-Diaz in support of its holding
that the defendant must have the opportunity to cross-examine the author. See 557
U.S. at 318-19 (“Forensic evidence is not uniquely immune from the risk of
manipulation.... A forensic analyst [...] may feel pressure—or have an incentive—to
alter the evidence in a manner favorable to the prosecution,” thus a defendant must
have the opportunity to test the analyst’s competence, honesty, and bias). Requiring
the State to present the original author would likewise remove any incentive an
unscrupulous prosecutor might have to replace an analyst of questionable
credibility with another, less problematic expert. See, e.g., Dungo, 286 P.3d at 445
n.2 (without showing author of autopsy report was unavailable, State called
different expert where author had been fired by one county, resigned “under a
cloud” from another, had falsified his resume, and had based his conclusions in one
case on police reports rather than medical evidence); Lee, 418 S.W.3d at 897 (State
declined to call author of autopsy report “not because she was unavailable, but
because she was under felony indictment”). Here, similarly, the State made no
assertion that Dr. Arangelovich was unavailable and was not required to show her
unavailability. Instead, the State simply called a different expert, depriving Chris
of any opportunity to question Dr. Arangelovich’s competence, honesty, or bias
before the jury.

-22-

Finally, this Court should clarify that under the proper “primary purpose
test,” whether an autopsy report is testimonial cannot hinge on whether the author
is an agent of law enforcement or merely required to submit the report to law
enforcement. The Illinois Supreme Court, for example, has held that a medical
examiner is “not an agent of law enforcement,” but is instead a “public health”
official, creating a presumption that an autopsy report is not testimonial. Leach,
2012 IL 111534, ¶ 129. This, too, is a factor that divides lower courts. See, e.g.,
United States v. James, 712 F.3d 79, 99 n.11 (2d Cir. 2013) (citing United States v.
Ignasiak, 667 F.3d 1217, 1232 (11th Cir. 2012)) (autopsy reports in New York City
are not testimonial because they are “not prepared primarily to create a record for
use at a criminal trial,” distinguishing Ignasiak based upon a Florida statute
placing the medical examiner’s office in the Department of Law Enforcement, while
the New York City medical examiner is “wholly independent” of law enforcement).
This Court should take this opportunity to clarify that whether an autopsy report is
testimonial depends upon the nature of the statements and the objective
expectations of the author, not upon an arbitrary classification of the medical
examiner’s office that varies from state to state.

III.

This case is an appropriate vehicle for this Court to address this
important and divisive question.
This Court should hear this case because it provides a suitable vehicle for

addressing these important questions. The signed and certified autopsy report was
introduced as evidence and is contained in the record. The Confrontation Clause
claim was preserved below and reaches this Court on direct appeal. And the
-23-

decision below rests solely upon the court’s finding that the autopsy report at issue
was non-testimonial under precedent from this Court and the Illinois Supreme
Court, without reaching the question of whether any Confrontation Clause violation
was harmless.
Because this case presents an important question that continues to divide
federal and state courts, this Court should grant certiorari.

CONCLUSION
For the foregoing reasons, petitioner, Christopher Taylor, respectfully prays that
a writ of certiorari issue to review the judgment of the Illinois Appellate Court.

Respectfully submitted,
DOUGLAS R. HOFF
Deputy Defender
MICHAEL C. BENNETT
Counsel of Record
Supervisor
Office of the State Appellate Defender
First Judicial District
203 N. La Salle St., 24th Floor
Chicago, IL 60601
(312) 814-5472
1stDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of counsel:
Gilbert C. Lenz
Assistant Appellate Defender

-24-

APPENDIX A

'~
• • .-T~

-

.....

_ .i• .

.y

~ ^

•r ~ "~

~

2019 IL App (1st) 150628-U
No. 1-15-0628
Order filed December 13, 2019
Fifth Division

NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLI:~10I5
FIRST DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
CHRISTOPHER TAYLOR,
Defendant-Appellant.

)
)

Appeal from the
Circuit Court of
Cook County.

)

No. 07 CR 15069

)

Honorable
Brian K. Flaherty,
Judge presiding.

)

JUSTICE HALL delivered the judgment of the court.
Presiding Justice Hoffman and Justice Rockford concurred in the judgment.

¶1

Held: This court affirmed defendant's first degree murder conviction where: the evidence
proved beyond a reasonable doubt that at the time of the shooting defendant
intended or knew his acts would kill or cause great bodily harm to the victim; no
evidentiary errors were committed by the trial court; and defense counsel was not
ineffective. The statutory 25-year mandatory firearm enhancement was not
unconstitutionally vague.

¶2

Defendant Christopher Taylor was charged by indictment with multiple counts of first

degree murder in connection with the death of Derico Fitch (Rico). A jury found defendant guilty

X10. 1-15-0628

of first degree murder, and he was sentenced to a term of 25 years' imprisonment for first degree
murder and a consecutive 25-year term for personally discharging a firearm that caused Rico's
death. Defendant appeals his conviction and sentence.
~3

On appeal, defendant contends as follows: (1) his first degree murder conviction must be

reduced to involuntary manslaughter; (2) the State's use of impermissible hearsay in a videorecorded interview denied defendant a fair trial; (3) defendant was denied his constitutional right
to confrunt the witnesses against him; (4) defense counsel was ineffective fur failing to request a
jury instruction on the mental state of knowledge; (5) the State's closing argument denied
defendant a fair trial; (6) the 25-year mandatory firearm enhancement was unconstitutional; and
(7) defendant's sentence was excessive.
BACKGROUND

¶4
¶5

The circumstances surrounding Rico's death in the early morning hours of June 20, 2007,

are largely undisputed; defendant admitted that he had a gun in his possession, and the gun
discharged killing Rico.
~'~i
7
~g
9

I. Pretrial Proceedings
Defendant filed several motions in limine, two of which are at issue in this appeal.
A. Video-Recorded Interview
Defendant moved to have the jury view only the redacted version of the video recording of

his interview with assistant State's Attorney Nick D'Angelo (ASA D'Angelo) on the ground that
during the interview, the ASA referred to statements by the eyewitnesses and other individuals
that might have be;.n false or never made. The trial court denied the motion, finding the ASA's
statements were a proper interrogation tactic and to redact them would remove their context and

-2-

No. 1-15-0628

render defendant's interview nonsensical to the jury. The court rejected defense counsel's
alternative request that the jury be instructed that they were not to consider the statements as
evidence and that the statements might contain inaccurate and intentional misstatements but agreed
to instruct the jury that the statements by other individuals referred to by ASA D'Angelo were not
evidence.
¶10
¶ 11

B. Confrontation Clause
Defendant filed a motion in limine seeking to bar the testimony of Dr. Eimad Zukariya, an

assistant Cook County medical examiner. Dr. Zukariya reviewed the reports przpared by Dr.
Valerie Arangelovich, the assistant Cook County medical examiner who performed the 2007
autopsy on Rico's body. Dr. Arangelovich was no longer employ zd in the Cook County medical
examiner's office. Defendant asserted that in order to disprove the State's intentional murder
theory he needed to cross-examine the medical examiner who performed the autopsy. He
maintained that having a medical examiner who only reviewed the reports testify violated his
constitutional right of confrontation. The trial court denied the motion finding that Dr. Zukariya's
testimony was nontestimonial in nature.
¶12
~ 13

II. Jury Trial
The relevant trial testimony is summarizCd below.

¶ 14

A. For the State

¶ 15

1. Duane Jeffrey F. Smith

¶ 16

a. Direct Examination

¶ 17

Duane Jeffrey F. Smith (Duane) and Devon Patton (Devon) were childhood friends and

friends of Rico. Duane was acquainted with defendant who was Devon's cousin.

-3-

No. 1-15-0628

¶ 18

Just after midnight on June 20, 2007, Duane, Devon and defendant were at Devon's uncle's

house on Lincoln Avenue, in Harvey. The three men were talking in the garage when Rico arrived.
Rico and defendant bean to argue loudly enough that the group was asked to move. Devon and
Duane followed Rico across the street to the Lincoln Medical Center parking lot. Defendant
walked across the street but at an angle away from the group. Duane's attention was on Rico
because he wanted to find out what the argument was about, and he lost sight of defendant. When
defendant returned to the group, he seemed quiet, but he got loud again as Rico and he continued
their argument.
¶ 19

Devun and Duane attempted to keep the argument between Rico and defendant from

becoming physical. As defendant approached Rico, De~~on pushed defendant, and Duane jumped
in front of Rico. Rico pushed Duane out of the way, turning on an angle, and defendant pushed
Devon away. Duane heard a shot and saw defendant holding a gun. Duane began to run, afraid that
defendant was going to shoot Devon or him. He went about five feet and then turned back to where
Rico had fallen. Duane saw defendant run toward Lincoln Medical Center. Duane did not see him
drop the gun and did not know what he did with it.
¶ 20

While calling the police, Duane used a shirt to try to stop the bleeding from Rico's wound.

After the police and an ambulance arrived, Devon and Duane accompanied a police officer to
Rico's house to inform Rico's family what had occurred. After returning t~~ the scene, Devon and
Duane were placed in a squad car and driven to the Harvey police station. Duane did not know
where defendant was at that time. At the police station, Duane was separated from Devon and
placed in an interview room. During an interview with a detective, Duane stated that defendant

No. 1-15-0628

shot Rico. In a videotaped interview, Duane repeated that defendant shot Rico. He did not see the
gun until after the shot was fired. Defendant was the only person Duane saw with a gun.
¶21
¶ 22

b. Cross-examination
According to Duane, Rico and defendant argued about Rico's criticism of the group's

failure to take security precautions. At one point, Rico and defendant took their shirts off to fight.
After Devon and Duane returned to where Rico had fallen, defendant returned and told Duane to
remove his shirt so that defendant and Duane could apply pressure to Rico's wound.
¶ 23

2. Devon Patton

¶ 24

a. Direct Examination

¶ 25

At the time of defendant's trial, Devon was on parole for an armed robbery conviction from

the State of Michigan.
¶ 26

On June 20, 2007, defendant and Devon were standing in front of his uncle's house when

they were joined by Duane. The group was socializing when Rico arrived asking why they were
"slipping," meaning they were not paying attention to their surroundings. At first Rico directed his
comments to the group, but it turned into an argument between defendant and Rico. The argument
grew so loud that the group was asked to move away from the house. They crossed the street to
the parking lot of the Lincoln Medical Center.
¶ 27

Aftc;r crossing the street, defendant and Rico continued to argue loudly. Duane and Devon

tried to keep them apart so they would not get into a physical altercation, but neither man would
calm down. Defendant removed his shirt, but Rico did not remove any of his clothing. Devon was
holding Rico, who told him he was fine and to let him go. Devon then went over to defendant
telling him to calm down and holding his arms. Defendant shoved Devon away and faced Rico.

-5-

No. 1-15-0628

As Devon turned around, he saw defendant with a gun; his elbows were bent, and the gun was
pointed forward. Devon heard a shot and ran back toward his uncle's house. ~~e tried but failed to
gain admittance to the house or to the house next door. As Devon waited on the side of the house,
he did not see defendant.
¶ 28

Devon returned to ~~here Rico had fallen; Duane was trying to apply pressure to the gunshot

wound. Rico was wearing a hoodie over two shirts, so it was hard to tell «here the blood was
coming from. Neither Duane nor Devon had a gun that night, and Devun did not see Rico with a
gun.
¶ 29

After the police and the ambulance arrived, a police officer took Duane and Devon to

Rico's house to tell his family what had occurred. When they returned to the scene, Devon saw
defendant talking to police officers. He heard defendant tell the officers that someone had walked
up and shot Rico. Devon was taken to the police station where he was interviewed by the police
and gave a videotaped statement. He was then released.
¶ 30
¶ 31

b. Cross-Examination
According to Devon, defendant removed his shirt, but Rico did not take his clothes off.

Devon admitted he had been drinking and thought he was intoYicatzd. Rico did not appear to be
intoxicated. Devon did not remember asking Rico if he was intoxicated. When Rico was arguing
with the group, ever}~one thought he was kidding.
¶ 32

Devon denied that he was distracted by the commotiun resulting from the continuing

argument or by Rico shouting to the occupants of a van as it drove by. Devon acknowledged that
defendant was not extending his arm forward pointing the gun at Rico.
3. Eimad Zukariya, M.D.

No. 1-15-0628

~; 33

At the time of trial, Dr. Zukariya was an assistant medical examiner in the Office of the

Cook County Medical E.Kaminer. Over defendant's objection, the trial court qualified Dr. Zukariya
as an expert in the field of forensic pathology.
¶ 34
¶ 35

a. Direct Examination
In 2015, Dr. Zukariya reviewed records of the June 20, 2007, autopsy performed on Rico's

body by Dr. Arangelovich. According to the autopsy report, an external examination of the body
revealed a number of abrasions and two gunshot wounds. The first gunshot wound was on the right
side of the chest below the nipple. There was stippling around the wound indicating that the range
of fire was two to three feet from the body, and the course of the bullet was from front to back, left
to right and then downward. The bullet passed through the skin and soft tissue of the right side of
the chest striking the diaphragm on the right. It then struck the top of the liver, hit the middle and
lower lobe of the right lung and struck the spleen before exiting the body between the tenth and
eleventh ribs. There was an exit wound on the left side of the back. The wound caused a loss of
40% or two-fifths of the victim's blood.
¶ 36

The second gunshot wound was on the back of the left arm, above the elbow, where the

bullet entered. It did not strike any bone matter as it traveled back to front, left to right and upwards.
There was no stippling around the second gunshot wound. There was an exit wound as well.
37

Dr. Zukariya believed the bullet that exited from the first gunshot wound could not have

caused both wounds for several reasons. First, the bullzt exited the body at 20 and 1/2 inches from
the top of the head and would hay e had to reenter the body 11 inches below the top of the head.
Second, the bullet would have had a different entrance and exit path opposite to what the report
showed. Third, the one bullet would have caused an atypical entry wound upon its second entry

-7-

:~`o. 1-15-0628

because it would not be traveling in the same plane, i. e., rotating. The second wound entry looked
like a typical entry. Therefore, Dr. Zukariya did not believe the second gunshot wound resulted
from a reentry of the first bullet.
¶ 38

Based on his review of the a~.itopsy records and the photographs and within a reasonable

degree of medical certainty, Dr. Zukariya opined that the cause of Rico's death was multiple
gunshot wounds, and the manner of death was homicide.
¶ 39
¶ 40

b. Cross-Examination
The toxicology report indicated that while Rico had stopped drinking earlier in the evening,

he was still legally intoxicated at the time of his death. The number designation of the gunshot
wounds did not relate to the order in which the wounds were inflicted.
¶ 41

Dr. Zukariya explained that he relied on tl~e body measurements Dr. Arangelovich had

taken. Had he performed the autopsy, he could have examined the internal organs to determine if
the bullet had tumbled as it passed through the body. The doctor did not review any x-rays; those
would have revealed fragments of the bullet if tumbling had occurred. Dr. Arangelovich's report
did not mention any bullet fragments. The trajectory of the bullet as up or down in the body did
not always relate to how the person was standing or moving when they were shot. Even if he had
performed the autopsy himself, Dr. Zukariya would not have been able to tell how the bullet
entered Rico's body. The doctor agreed that it would have been better to have been the individual
performing the original autopsy. Making his own observations, taking the measurements and
choosing which photographs to take would result in a more complete and accurate review. The
doctor acknowledged that he was relying on Dr. Arangelovich's autopsy report and that the report
was subject to the possibility of human error. There had been one clerical error in the report; an

~:~

No. 1-15-0628

exit wound was transcribed as an entrance wound. Dr. Zukariy~a agreed that Rico's clothing could
have blocked the stippling effzct from appearing on his skin.
¶ 42
¶ 43

c. Redirect Examination
According to Dr. Zukariya, if Rico had been wearing a light tee shirt, the stippling could

have been seen on his skin. His review of the autopsy photographs supported the measurements
recorded by Dr. Arangelovich.
¶ 44
¶ 45

d. Re-Cross-Examination
Dr. Zukariya acknowledged that to be certain of the actual measurement, it was necessary

to have been present when the autopsy was performed. Mostly likely, any stippling would not have
penetrated through a hoodie and two shirts. ~
¶ 46

4. Manuel Escalante

¶ 47

a. Direct Examination

¶ 48

Prior to his retirement, :~7r. Escalante was employed as a detective with the City of Harvey

police department.
¶ 49

On June 20, 2007, Detective Escalante was dispatched to the scene of a shooting at the

Lincoln I~ledical Center. He learned that there were three witnesses to the shooting; Duane, Devon
and defendant. Arriving on the scene, Detective Escalante spoke with all three men prior to having
them transported to the Harvey police station. Upon their arrival at the police station, defendant,
Duane and Devon were separated and were unable to talk to or see each other.

The autopsy report, People's Exhibit No. 29, was admitted into evidence at the close of the
State's case.

No. 1-15-0628

~ 50

At 3:30 a.m. on June 20, 2007, Detective Escalante interviewed defendant, who was not

considered a suspect at that time. When asked what he witnessed at the scene of the shooting,
defendant told the detective that a male individual, dressed in blue jeans and a white T-shirt came
up to where Rico, Duane, Devon and he ~n~ere standing. The individual, whose face was partially
covered, displayed a handgun and shot Rico. Defendant thought the handgun was ablue-steel
semiautomatic. The individual then ran from the scene in a northwCst direction. The interview with
defendant lasted 15 to 20 minutes. After Detective Escalante conducted separate interviews with
Duane and Devon, defendant became a suspect in Rico's death.
1~ 51

Around 3 p.m. on June 20, 2007, defendant was placed in the "green room" of the detective

area. The room contained sofas, a television set and a drinking fountain. Defendant was not
handcuffed; he was fed and allowed to watch television. He remained there until 7 a.m. the next
day. In the meantime, the area around the scene of the shooting was canvassed for the weapon
used in the shooting and to locate additional witnesses. No witnesses came forward, and the
weapon was never found.
'~ 52

By 8:30 a.m. on June 21, 2007, Detective Es~alante had conducted second interviews with

Duane and Devon. When the detective went to tell defendant he would be returned to the lockup,
defendant asked what had happened to Duane and Devon. The detective responded that the
investigation was ongoing. Defendant stated he wished to talk. Detective Escalante verbally
advised defendant of his 1~liranda rights; and defendant was taken to an inter~~iew room, where a
video camera was set up to record his statement. Detective Crocker was also present in the
interview room. Detective Escalante advised defendant of his tlliranda rights in writing. Defendant
changed his version of the shooting and stated that he shot Rico.

- 10-

No. 1-15-0628

~1 53

Prior to the jury viewing the video recording of his inter~~iew with Detective Escalante,

defendant renewed his objection to the recording being played for the jury. The trial court denied
defendant's request to instruct the jury that Detective Escalante made intentional misstatements to
him during the interview, but the court did instruct the jury that what the detectives said on the
recording was not evidence. After the recording was played for the jury, defendant moved for a
mistrial based on the improper information contained in the recording. The trial court denied the
motion for mistrial.
¶ 54
¶ 55

b. Cross-Examination
DetCctive Escalante maintained that there was no communication between defendant,

Duane and Devon at the Harvey police station. Other than the interviews, the detective did not
discuss the case with defendant, until he stated he wished to talk to the detective.
¶ 56

5. Nick D'Angclo

¶ 57

a. Direct Examination

¶ 58

Beginning on the evening of June 21, 2007, and into the early hours of June 22, 2017, ASA

D'Angelo conducted separate interviews with Duane and De~~on as part of the investigation into
Rico's death. He then conducted avideo-recorded interview with defendant.
¶ 59

Over defendant's objectiun, the trial court allowed the State to present the unredacted video

recording of ASA D'Angelo's interview with defendant. At the request of defendant, the trial court
instructed the jury as follows:
"[Y]ou will be watching and listening to a DVD recording of a conversation between
[defendant] and Mr. D'Angelo. This recording is being played solely for the purpose of

No. 1-15-0628

showing what [defendant] said about the incident. What :VIr. D'An~elo said is not evidence
and must notten [sicJ considered by you as any evidence in this cas.;."
¶ 60
¶ 61

b. Cross-Examination
ASA D'Angelo did not discuss the case with defendant prior to the commencement of the

recording. When the ASA finished asking questions, he stated that he was done, and the recording
was stopped. ASA D'Angelo acknowledged that defendant continued speaking after the recording
was turned off, saying something to the effect that he had not intended to shoot Rico.
¶ 62

6. Nicole Fundell

¶ 63

a. Direct Examination

¶ 64

Nicule Fundell, a forensic scientist specializing in firearm and tool mark examinations for

the Illinois state police, was qualified by the trial court as an expert witness.
¶ 65

Ms. Fundell examined a cartridge case and a fired bullet that had beCn recovered from the

scene of the shooting. The cartridge and the bullet could not have come from the same gun because
they were of two different calibers. N1s. Fundell could not identify the model of the gun that the
cartridge case w a~ fired from though she could eliminate a Glock firearm because it had a different
firing pin shape than the one on the fired cartridge case. She could not identify the model gun that
the discharged bullet came from since the list of guns was too extensive. Ms. Fundell could
eliminate Glock, Agent-K and Kahr firearms because they were designed with polygonal rifling,
while the discharged bullet had cut-rifling.
¶ 66

Ms. Fundell was questioned about defendant's statement to ASA D'Angelo on the video

recording that he used a "lemon squeezer" type of gun, which he maintained required only one
pull on the trigger to fire two shots. Ms. Fundell explained that "lemon squeezer" was a nickname

-12-

No. 1-15-0628

given to the Smith &Wesson hammerless revolver. Pulling the trigger required more force than a
single-action, but it would fire only one bullet for each pull of the trigger.
¶ 67
¶ 68

b. Cross-Examination,
While the recovered bullet was in good condition. I~1s. Fundell could not determine how

long either the bullet or the cartridge had been in the area before they were recovered. Smith &
Wesson manufactured the "lemon squeezer" prior to World War II and then reintroduced it in the
1950's. If an individual referred to a firearm other than the Smith & Vl'esson hammerless revolver
as a "lemon squeezer," the term meant something different to that person.
B. For the Defendant
¶ 70
¶ 71
72

Defendant waived his right to testify and did not call any witnesses.
C. Verdict and Posttrial Motions
The jury was instructed on both first degree murder and involuntary manslaughter. The

jury deliberated and returned a verdict finding defendant guilty of first degree murder. Following
argument, the trial court denied defendant's motion for a new trial.
'~ 73
¶ 74

III. Sentencing
At the s.:ntencing hearing, the prosecutor pointed out that at age 18, defendant was

convicted of home invasion, a Class X felony and sentenced to the Illinois Department of
Corrections. The present offense took place when he was age 24, two years after he had completed
the mandatory supervised release (MSR) portion of his sentence. The prosecutor pointed out that
defendant was the only person at the scene armed with a gun, and even though his friends attempted
to restrain him, he chose to use his weapon to settle what had only been a verbal argument. The

-13-

No. 1-15-0628

prosecutor requested that the trial court impose a sentence close to the maximum term for first
degree murder.
~; 75

Defense counsel pointed out that defendant never had a family life; by age three, he was in

the custody of the Department of Children and Family Services (DC~~), and he lived in a series
of group homes and with foster parents. His mother died, and' he ne~cr met his siblings. After he
was released from prism, he got a job and tried to support his daughter as ~~vell as help his girlfriend
raise her two children. Defense counsel requested a 45-year sentence, which would demonstrate
to defendant the serious nature of his actions and give him time to realize the harm he caused.
'~ 76

In sentencing defendant, the trial court stated that it took into consideration defendant's

social history, especially the lack of a family life. The court recognized that in effect no one was
raising defendant and teaching him, "as your counsel put it, how to act like a man, because you
did not. act like a man that day." The court also considered that defendant's conduct caused serious
harm, and he had a history of prior criminality. The court found the sentence was necessary to
deter others from committing the same offense. The trial court sentenced defendant to 25 years for
first degree murder and imposed a consecutive 25-year firearm enhancement.
¶ 77

Defendant's motion for reconsideration of his sentence was denied. This timely appeal

followed. 2
¶ 78

ANALYSIS

¶ 79

I. Sufficiency of the Evidence

2 This case was assigned to the authoring justice on September 13, 2018, but was not fully briefed
until October 2, 2018. The disposition was first circulated to the panel members on November 14, 2019.

-14-

No. 1-15-068

¶ 80

Defendant contends that his conviction for first degree murder must be reduced to

involuntary manslaughter because the State failed to prove beyond a reasonable doubt that he
intended to kill Rico or knew that his actions would result in Rico's death or great bodily harm to
Rico. He maintains that the evidence established that his actions ~~ere reckless, and therefore, he
was guilty of involuntary manslaughter, not first degree murder.
¶81
¶ 82

A. Standard of Review
When reviewing a challenge to the sufficiency of the evidence, the reviewing court's

function is not to retry the defendant. People v. Ncre, 2018 IL 122566, ¶ 69. Rather, the court
considers whether, "viewing the e~•idence in the light most favorable to the State, ` "any rational
trier of fact could have found the essential elements of the crime beyond a reasonable doubt." '
(Emphasis in original.)" .'V~re, 2018 IL 122566, ¶ 69 (quoting People v. Collins, 106 Ill. 2d 237,
261 (1985), quoting Jackson v. Virginia, 443 U.S. 307, 319 (1979)).
83
¶ 84

B. Discussion
"The basic difference between involuntary manslaughter and first degree murder is the

mental state that accompanies the conduct resulting in the victim's death." People v. Di tiincenzo,
183 Ill. 2d 239, 249 (1998), abrogated on other• grounds by People v. McDonald, 2016 IL 118882.
"The mental state for murder is knowledge, while the mental state for involuntary manslaughter is
recklessness." People v. Jones, 404 Ill. App. 3d 734, 742 (2010).
~; 85

A person knows or acts knowingly or with knowledge of: "(h) [tJhe result of his conduct,

described by the statute defining the offense, when he is consciously aware that such result is
practically certain to be caused by his conduct." 720 ILCS 5/4-5(b) (V~'est 2006). "A person acts
recklessly when he `consciously disregards a substantial and unjustifiable risk that circumstances

-15-

I~To. 1-15-0628

exit or that a result will follow *** and such disregard constitutes a gross deviation from the
standard of care which a reasonable person would exercis,; in the situation.' "Jones, 404 Ill. App.
3d at 742 (quoting 720 ILCS 5/4-6 (West 2006)). In general, a person acts recklessly when he is
aware that his conduct might result in death or great bodily harm, although that result is not
substantially certain to occur. Di G'incenzo, 183 Ill. 2d at 250. Typically, recklessness involves a
lesser degrre of risk than conduct that creates a strong probability of death or great bodily harm.
DiVincenzo, 183 Ill. 2d at 250. "[RJecklessness an~i knowledge are mutually inconsistent culpable
mental states." People v. Fornear, 176 Ill. 2d 523, 531 (1997).
¶ 86

In this case, it is undisputed that defendant's discharg,; of the gun resulted in Rico's death.

Only his mental state at the time of the shooting is at issue. Since direct evidence of a defendant's
mental state is usually lacking, it may be inferred from the surrounding circumstances, including
the character of the defendant's acts and the nature of the victim's injuries. Jones, 404 Ill. App. 3d
at 744. The question of whether a defendant acted intentionally, knowingly or merely recklessly
is generally a question for the trier of fact. Jones, 404 Ill. App. 3d at 744.
¶ 87

Defendant maintains that the uncontradicted evidence showed that Rico and he engaged in

an alcohol-fueled argument initiated by Rico, that defendant displayed the gun in order to reassure
Rico that the group would not be taken by surprise and that as Rico and he struggled for the gun it
discharged one time. Defendant points out that he remained at the scene and attempted to aid Rico
and consistently maintained that he did not intend to shoot Rico. He argues that these actions were
further proof that he did not pussess the mental state for first degree murder.
¶ 88

That defendant's mental state was one of knowledge rather than recklessness was

supported by the autopsy report, which stated that Rico died of multiple gunshots, and Dr.

-16-

No. 1-15-0628

Zukariya's testimony explaining why Rico's injuries could only have been the result of two gun
shots. In her testimony, Ms. Fundcll, the expert in firearms, disputed defendant's claim that the
gun he used fired two bullets for each trigger pull. She explained that a "lemon squeezer," the term
defendant had used, was a nickname given to a Smith and Wesson revolver that took more effort
to fire but still only discharged one bullet at a time.
~! 89

The State's evidence as to defendant's mental state was not limited to the two-shot theory.

There was other evidence, which if believed by the jury, established beyond a reasonable doubt
that defendant's mental state at the time of the shooting was one of knowledge, not recklessness.
Defendant was the only person at the scene armed with a gun. Defendant's claim that he was just
showing the gun to Rico and that it discharged during a struggle is contrary to the testimony of
Duane and Devon, who testified that prior to the shooting, they were trying to restrain defendant
when he pushed them out of the way and approached Rico. Neither witness testified that defendant
showed the gun to Rico nor that defendant and Rico struggled for the gun before it went off. ~TJhile
defendant argues that it is mere speculation on the State's part that Duane and Devon simply did
not hear a second gunshot, neither witness was. questioned as to how many gun shots they heard.
Both witnesses ran a short distance from the scene after the first shot, and it is reasonable to infer
that they were focused on their oven safety, rather than how many shots were fired.
~ 90

Defendant's claim that he remained at the scene to render aid to Rico after the shooting

was contradicted by Duane's testimony that def:;ndant initially fled the scene before returning to
where Duane was ministering to Rico. As for defendant's claim that he consistently denied that he
intended to kill Rico, it is undisputed that defendant initially told police that another individual
approached the group and shot Rico. Defendant even provided a description of the shooter and the

-17-

I~'o. 1-15-0628

type of gun the shooter used. Reviewing the evidence in the light most favorable to the State, there
was more than sufficient evidence establishing beyond a rzasonable doubt that defendant knew
that his actions would result in death or great bodily harm to Rico.
¶ 91

Defendant relics on People v. Collins, 213 Ill. App. 3d 818 (1991). Similar to the present

case, Mr. Collins and the victim had been drinking heavily at the time of the shooting and the
State's theory of guilt was that two shots were fired. Collins is otherwise distinguishable from the
present case. According to the eyewitness, Mr. Collins and the victim were on the floor struggling,
and the victim was on top of Mr. Collins when the gun discharged. Mr. Collins attempted to revivC
the victim before realizing he ~~as dead. He then called 911 to alert the police and requested an
ambulance. Mr. Collins gave his name and address and admitted he and his friend were wrestling
with the gun when it dis~hargc:d. Collins, 213 Ill. App. 3d at 825.
¶ 92

Unlike the present case, in Collins, there was positive evidence that the gun discharged

during a struggle, and Mr. Collins immediately acted to aid the victim and to identify himself to
police. Further, unlike the present case, the physical evidence in Collins did not support the
testimony that two shots were fired, which was critical to the State's theory in that case. While
noting the weaknesses and contradictions in Mr. Collins' testimony, the reviewing court pointed
out that the State still had the burden to prove a mental state sufficient for a conviction for first
degree murder. Collins, 213 Ill. App. 3d at 825. The reviewing court reduced Mr. Collins' first
degree murder conviction t~~ second degree murder. Collins, 213 Ill. App. 3d at 827.
¶ 93

Defendant also relies on People v. Ellis, 107 Ill. App. 3d 603 (1982). In that case, Mr. Ellis

and the victim had been drinking when Mr. Ellis ordered the victim out of his apartment. Vv'hen
the victim refused to leave, Mr. Ellis fired a warning shot. The ~ ictim lunged at Mr. Ellis, who

No. 1-15-0628

shot him in the head. The reviewing court found Mr. Ellis' version of the shooting that he fired the
gun the first time to scare the victim and that he fired a second time when the victim came at him
was not contradicted by the State's evidence. The lack of "tattooing" on the victim did not establish
that the gun was fired from a distance which would have established intent. It could have resulted
from aclose-range discharge in which case the wound would have absorbed the gunpowder. While
rejecting Mr. Ellis' self-defense claim, the reviewing court reduced his first degree murder
conviction to voluntary manslaughter. Ellis, 107 I11. App. 3d at 612.
¶ 94

Other than an alcohol-fueled argument, the facts in Ellis distinguish it from the present

case. The evidence supported Mr. Ellis' description of the events leading to the victim's death, i.e.,
the warning shot and the struggle for the gun, and was not contradicted by the State's evidence.
Moreover, like Mr. Collins, Mr. ~ llis' conduct after the shooting was consistent with his lack of
intent in shooting the victim; he immediately roused his neighbors telling them a man had been
shot and asked for help to save his life. Ellis, 107 Ill. App. 3d at 606. That contrasts with the
behavior of defendant in the present case who initially fled the scene and then returned to the scene
to help Devon stop Rico's bleeding and later claimed to police that Rico had been shot by an
unknown assailant.
'~ 95

This court must reverse a conviction where, after reviewing the evidence and giving due

consideration to the fact that the trial court had the opportunity to see and hear the witnesses, we
are of the opinion that the evidence was insufficient to prove the defendant guilty beyond a
reasonable doubt. Jones, 404 Ill. App. 3d at 744. In the present case, after viewing the evidence in
the light most favorable to the State, we find that a rational trier of fact could have found that
defendant's conduct in shooting Rico established that he knew his acts would result in death or

-19-

No. 1-15-0628

great bodily harm to Rice. We conclude that defendant was found guilty of first degree murder
beyond a reasonable doubt.
¶ 96
¶ 97

II. Admission of the tJnredacted Video Recording
Defendant contends that the failure to redact the hearsay statements of ASA D'Angelo

from the video recording of his interview with defendant was reversible error.
¶ 98

Over defendant's objection, the jury viewed the unredacted video recording of

defendant's interview with ASA D'Angelo. The interview contained the following exchange.
The complained-of statements are set forth in italics:
"[DEFENDANT]: I wasn't planning to shoot [Rico] at all.
ASA D'ANGELO: Now, let's talk a little bit about * * * a couple of things. There

was

[sic] two shots that came out of the gun, okay. j~Ve know that from the autopsy that took
place today. So you had to pull the trigger twice.
DEFb~DANT: T'hat's why I said it's a lemon squeezer. Vdhat it is, it's like, a lemon
squCezer, it's like when you pull the trigger on the gun instead of it be one shot, it be two.
ASA D'A:~1GEL0: But that can't happen. 1~'e talked to the people at the lab, okay, and
they say it can 't happen, okay. And the bullet wounds on Rico don't line up. * * * So you
had to pull the trigger twice.
DEFENDAI~TT::~'o, I pulled the trigger once.
ASA D'ANGELO: You pulled the trigger once. You sure?
DEFENDAIv~T: Positive."
ASA D'Angelo then questioned defendant about the gun as follows:

-20-

No. 1-15-0628

"I know you said you dropped [the gun], but 1 talked to [Duane Smith) and I talked
to your cousin `Devon Patton) and the}~ said you ran with it.
DEFENDANT: I didn't run ~~ith it. I dropped the gun and then I ran, and then I came
back * * *" ~
¶ 99

A. Standard of Review

¶ 100 The parties agree the trial court's admission of evidence is generally reviewed for an abuse
of discretion. People v. Dunmore, 389 II1. App. 3d 1095, 1104 (2009). Defendant maintains that
whether a statement qualifies as hearsay is a question of law and as a question of law is subject to
de novo review. See People v. Hull, 195 Ill. 2d 1, 21 (2000) (courts apply the d~ novo standard of
review to questions of statutory interpretations and other questions of law).
¶ 101 Defendant's argument was rejected in Dunmore 389 Ill. App. 3d at 1104 (applying the
abuse of discretion standard to whether the trial court correctly excluded testimony as inadmissible
hearsay); see People v. Hammonds, 409 I11 App. 3d 838, 400 (2011) (the appellate court applies
an abuse of discretion standard to a trial court's determination of whether a statement is hearsay
and if so, whether an exception applies to render it admissible).
¶ 102 Therefore, we will review this issue for an abuse of discretion. "An abuse of discretion
will be found only where the trial court's decision is arbitrary, fanciful, ur unreasonable or where
no reasonable man would take the view adopted by the trial court." Dunmore, 389 Ill. App. 3d at
1105; see People v. Bryant, 391 Ill. App. 3d 2~8, 245 (2009) (trial court did not abuse its discretion
by allowing the jury to view the video recordings of the defendants' interviews with investigators).
¶ 103

B. Discussion

-21-

No. 1-15-0628

¶ 104 Defendant contends that the complained-of statements were hearsay and therefore
inadmissible. Hearsay is an out-of-court statement offered to establish the truth of the matter
asscrt;;d. People v. Theis, 2011 IL app (2d) 091080, ¶ 33. If the statement is offered for a reason
other than to prove the truth of the matter asserted, it is not hearsay. Dunmore, 389 Ill. App. 3d at
1106. An out-of-court stat~:ment offered to prove the eff.:ct on the listener's mind or to show why
the listener later acted as he did is not hearsay and is admissible. Peuple v. Gonzalez, 379 Ill. App.
3d 941, 954 (2008). In this case, defendant changed his version of the shooting by an unknown
assailant to admitting he shot Rico but maintaining it ~~as unintentional. ASA D'Angelo told
defendant what he had been told by the lab personnel and the e}~ewitnesses for the purpose of
seeing how defendant would respond to information contradicting his claim that the shooting was
unintentional. VVe agree with the State that ASA D'Angelo's statements were not offered for their
truth and therefore, they were not hearsay.
T 105

Defendant further contends that the statements by Duane and Devon were prior

inconsistent statement. Prior inconsistent statements are normally inadmissible hearsay.
Gonzalez. 379 Ill. App. 3d at 956. Defendant argues that the failure to redact the video recording
allowed the State to present statements by Duane and Devon to the jury that differed from their
trial testimony and that bolstered the State's case on the mental-health element.
¶ 106 We disagree. The statements were not hearsay as they were not admitted for their truth.
Moreover, the trial court instructed the jury that ASA D'Angelo's statements during the interview
with defendant were not evidence, should not be considered as evidence and that the video
recording was played solely for the purpose of showing what defendant said about the incident.

-22-

No. 1-15-0628

¶ 107 Contrary to defendant's contention, in People v. Whitfield, 2018 IL App (4th) 150948,
People v. Hardimon, 2017 IL App (3d) 120772, and Theis, our courts have addressed the
admissibility of an interviewer's statements. In both Hardimon and Theis, the courts found
statements by the investigating officers to be admissible where they were necessary to show the
effect on the defendant or explain his subsequent actions. See Hardimon, 2017 IL App (3d)
120772, ¶ 35; Theis, 2011 IL App (2d) 091080, ¶ 33.
¶ 108 In Whitfield, the reviewing court set forth the following factors for a trial court to consider
in determining whether or which questions or statements by the interviewer during an interrogation
of the defendant are admissible: (1) whether the questions would be helpful to the jury so as to
place the defendant's responses or failure to respond into context, and if so, (2) whether the
prejudicial effect of the interviewer's questions or statements substantially outweighs their
probative; value. Whitfreld, 2018 IL App (4th) 150948, T -~8.
T 109 Defendant disputes the trial court's finding that his answers would have been rendered
"nonsensical" without the complained-of statements. See Theis, 2011 IL App (2d) 091080; ¶ 33
(failure to redact inter~•iew~r's statements from a videotape of an interview was not error where
without the statements defendant's answers would have been "nonsensical"). We do not believe
that in every case a defendant's responses must be reduced to a level of the illobical or the
ridiculous to allow the interviewer's statements to be admissible. The court in Whitfield found that
interviewers' statements "may still possess probativeness where they are simply helpful, although
not essential or `necessary' to a jury's understanding of the defendant's responses or silence."
Whitfield, 2018 IL App (4th) 150948, 1( 48 (disagreeing with higher probability requirement set
forth in Hardimon and Theis). In the present case, ASA D'Angelo's statements provided context

23 -

No. 1-15-0628

and were helpful in understanding defendant's responses to the information contradicting his claim
that the shooting was unintentional.
¶ 110 Defendant maintains that the unredacted video recording was unduly prejudicial. See
Whitfield, 2018 IL App (4th) 150948, ~ 47 (e~,;n relevant evidence may be excluded where its
probative value is substantially outweighed by it prejudicial effect). In Ilan-dimon, the reviewing
court found defense counsel ineffecti~~e for failing to move to redact portions of a videotaped
interview of the defendant by two d„t~cti~~~s. Hardimon, X017 IL App (3d) 120772, ~ 39. The court
found the portion of the video recording in which the d~t~ctives challenged the defendant's
protestations of innocence, made threats as well as promises of leniency if he confessed and told
him that he would definitely be fi~und guilty was unnecessary in that it was not relevant and was
highly prejudicial. Hardimon, 2017 IL App (3d) 120772,'~T 36-37.
¶ 111

In contrast, ASA D'Angelo's stat.;ments «ere relevant to defendant's claim that he did

not intend to shoot Rico. The ASA did not use the statements to disparage defendant but to ask
him to explain why the physical evidence did not support his version that the shooting was
unintentional. Defendant was not accused of lying, and he was not threatened by ASA D'Angelo.
Moreover, unlike the present case, the court in Hardimori found that its finding of prejudice was
supported by the lack of evidence directly connecting the defendant to the crime. Hardimon, 2017
IL App (3d) 120772, ~ 39.
¶ 112 Defendant argues that ASA D'Angelo's comments were far more prejudicial than those in
Theis. In that case, during an interview with the defendant, the following colloquy occurred:

-24-

No. 1-15-0628

"DETECTIVE NACHMAN: I know some things happened bet~~cen you and [the
victim). Alright. I want to know why. *** *** You have to be honest with me about it,
what am I supposed to think?
DEFENDANT: That I did it.
DETECTIVE NAC}~'v1AN: No, I know you did it. I'm going to think that you're a
stone-cold predator. *** I'm say~in~ sumcthing happened one time. It's overwith [sic]. And
I am not saying I believe it's ever boing to happen again. But you have to prove that to me.
You have to tell me why things happened that day. I am not asking you if things happened.
I know things happened. That's not an issue.
DEFENDANT: You've already accused me of doing it N~hen I ha~~e no clue what I've
done or anything else.
DETECTIVE NACHMAN: Things happened between you and [the victim] and Valorie
(the defendant's wife).
***
DETECTIVE NACH:VIAN: I knew things have happened without either of you telling
me. Because there's physical evidence. Period. Right now all you got is what I know and
what Valorie is telling me and you telling me nothing happened makes you look not so
good.
DEFENDANT: Of course she's saying that I did it or did this or she did this or whatever,
she's crazy because she didn't do nothing and I didn't do nothing so however you're going
to —

-25-

I~'o. 1-15-0628

DETECTIVE NACHMAN: I already know that's not true, John. We came to your door
because we hay e been working this investigation for quite some time. [The victim] was
honest with me about what happened. We didn't come talk to you fur nu reason." Theis,
2011 IL App (2d) 091080, ~ 31.
¶ 113 Defendant claims that in Theis, the detectivC told the defendant only that his investigation
revealed inculpatory physical evidence and that there was a witness' statement, omitting any
details as to what the evidence was or what the witness stated. However, in both Theis and the
present case, the interviewer made statements alluding to the existence of evidence and statements
challenging the defendants' denials of their actions or intent. If any thing, Detective Nachman's
statements to the defendant in Theis were more prejudicial, telling the defendant that not only that
there was the evidence establishing his guilt, but the detective knew the defendant was lying when
he denied his guilt.
¶ 114

Defendant's reliance on People v. ,~Iuss•er, 494 Mich. 337 (2013) is misplaced. In Musser,

the Michigan supreme court found that a detective's statement had no probative value where it
provided context to the response of another detective rather than to the defendant's statements.
The court further found that a number of other statements by the detective could have been redacted
without harming the probative'value of the defendant's responsive statement. ~llusser, 494 Mich.
at 360. The court then found that even if there was some probative value to certain of the
unredacted statements, the minimal probative value was outweighed by the danger of unfair
prejudice to Musser in a child sex abuse case. Musser, 494 :vlich. at 362-63 (noting that courts
needed to protect innocent defendants in such cases given the suggestibility and the prejudicial

-26-

No. 1-15-0628

effect an expert's testimony may have on a jury and finding that the detective's expertise and
knowledge gave him the aura given to expert witnesses).
¶ 115 Musser is distinguishable. The present case does not involve allegations of child sex abuse,
which the court in Musser found to be a significant factor in evaluating the prejudice to the
defendant factor. There the court found the defendant was entitled to a new trial where the evidence
was not overwhelming, and the limiting instruction that the jury was not to consider the detectives'
questions and statements in the interview with defendant as e~~idenc~ was not sufficient to satisfy
the court that the error in admitting the unredacted videotape did not undermine the verdict.
Musser, 494 Mich. at 363-65.
¶ 116 The fact that the trial court in [Musser gave the limiting instruction only after the jury was
shown the videotape is significant. The instruction was given after the recording was presented to
the jury and after an hour-long recess. The reviewing court in .Musser observed that:
"[T]he jury viewed the recording with the unqualified instruction in mind that the recording
was evidence only to later be informed that all of the recording's contents could not be
considered as such. (Citation.] ***[T]he risk that the jury accepted the contents of the
recording as substantive evidence was heightened by the lack of a limiting instruction
before the improperly admitted statements were presented to the jury. Accordingly,
although an appropriate limiting instruction may reduce prejudice to a defendant, the lack
of a timely limiting instruction i,~ this case rei~tforces our conclusion that an errorrequiring reversal occurred." (Emphasis ours.) ,Musser, 494 Mich. at 365.
In contrast, p~°ior to viewing the videotape of defendant's interview with ASA D'Angelo, the jury
was instructed that the ASA's comments on the videotape were not evidence and were to be

-27-

No. 1-15-0628

considered solely for the purpose of «hat defendant said about the incident. Additionally, unlike
Musser, the evidence in the present case was more than sufficient for the jury to find defendant
guilty of first degree murder.
1J 117 In sum,. ASA An~elo's statements to defendant during their interview were not hearsay and
were necessary as well as helpful to the jury. Telling defendant that individuals and the physical
evidence contradicted his claim that he only pulled the trigger one time served to ascertain
defendant's reaction to information that disputed his claim that he did not intend to kill Rico. ASA
D'Angelo's statements were relevant and did not prejudice defendant. :Vloreover, the trial court's
instruction to the jury prior to the playing of the video recording that the statements, other than
defendant's, were not evidence was sufficient in this case to eliminate any prejudice to defendant.
T 118 Finally, we find no abuse of discretion in the trial court's refusal to instruct the jury that
ASA D'Angclo's statements may have been false. Defendant acknowledges that law enforcement
may lie to a defendant during a custodial interrogation. See People v. Alelock, 149 Ill. 2d 423, 450
(1992) (a confession obtained by deception does not invalidate a confession as a matter of law). In
this case, defendant did not deny shooting Rico, but despite what ASA Angelo told him the
witnesses had stated, defendant never wavered from his position that he did not intend to kill him.
¶ 119

Defendant's reliance on People v. Jackson 331 Ill. App. 3d 279 (2002) is misplaced. In

Jackson, the revie~•ing court determined that it was insufficient for the trial court to instruct the
jury that the evidence of the defendant's prior crimes was to be considered only for the purpose of
determining the defendant's modus c~pErandi, where the instruction it received did not define the
term, and the court refused to give the defzndant's proposed instruction defining it. Jacicsun, 331
Ill. App. 3d at 282-83. The reviewing court refused to assume that jurors would be familiar with a

-28-

No. 1-15-0628

term that had its origins in a foreign language, acid the defendant's instruction correctly defined
the term. Jackson, 331 I11. App. 3d at 291.
¶ 120 In the present case, the trial court's instruction contained no words borrowed from a foreign
language for the jurors to decipher their meaning. The jury was instructed that ASA D'Angclo's
statements were not evidence and were not to be considered as evidence. The jury is presumed to
follow the instructions given to it by the trial court. People v. Mims, 403 Ill. App. 3d 884, 897
(2010).
¶ 121 For all of the foregoing reasons, we conclude that the trial court's denial of defendant's
motion to redact the complained-of statements by ASA D'Angelo from the video recording was
not an abuse of discretion. ~Ue further conclude that the trial court's refusal to instruct the jury that
ASA D'Angelo's statements in his interview with defendant may have been false way not an abuse
of discretion.
¶ 122

III. Confrontation Clause Violation

~ 123 Defendant contends that his sixth amendment right to confront the witnesses against him
was violated when he was not permitted to cross-examine Dr. Arangelovich, the assistant medical
examiner who conducted the autopsy on Rico's body and prepared the written report. He further
contends that the error was not harmless beyond a reasonable doubt.
¶ 124

A. Standard of Review

¶ 125 A defendant's claim that his sixth amendment right of confrontation was violated
constitutes a question of law, and our review is de novo. People v. Barney, 2015 IL 116949, 1~ 39.
¶ 126

B. Discussion

-29-

:v'o. 1-15-0628

¶ 127 In Crawfo~~d v. Washingt~~n, 541 U.S. 36 (2004), the United States Supreme Court held that
the confrontation clause bars the admission of testimonial statements of a witness who does not
testify unless the witness is unavailable, and the defendant had a prior opportunity to crossexamine the witness. Crawford, 541 U. S. at 68.
¶ 128 Defendant contends it was error to admit Dr. Zuk~riya's testimony and the written autopsy
report. He argues that Dr. Arangelovich's description of Rico's injuries in the written autopsy
report was the sole basis for Dr. Zukariya's opinion that there were tw•o gunshot wounds on Rico's
body. Defendant maintains that the State used the autopsy report and Dr. Zukariya's testimony to
establish that defendant fired two gunshots into Rico, which evidenced his intent to kill Rico.
Defendant insists that the error in admitting ASA D'Angelo's reference to the autopsy report in
his interview with defendant, the autopsy report and Dr. Zukariya's testimony could not be
harmless since the State's evidence of defendant's intent to kill or knowledge that his actions
would cause death or great bodily harm to Rico was far from overwhelming.
~ 129 If an autopsy report is properly admitted into evidence, the testimony of the expert witness
cannot have violated the confrontation clause even if it had the effect of offering the report for the
truth of the matter asserted. People v. Leach, 2012 IL 111534, ¶ 57. Therefore our focus is on
whether the admission of the autopsy report violated the confrontation clause because it v~~as
testimonial.
¶ 130 In determining whether a document is testimonial, the court makes an objective
determination of the primary purpose for the statement's creation. Leach, 2012 IL 111534, ¶ 120.
In Leach, our supreme court determined that where an autopsy report w•as not prepared for the

-30-

No. 1-15-0628

primary purpose of accusing a targeted individual or for the primary purpose of providing e~•idence
in a criminal case, the report was not testimonial. Leaclz, 2012 IL 111534,1( 122.
¶ 131 Defendant points out that the court in Leach acknowledged that an autopsy report could be
testimonial. The court in Leach held that autopsy reports "should be deemed testimonial only in
the unusual case in which the police play a direct role (perhaps by arranging for the exhumation
of a body to reopen a `cold case') and the purpose of the autopsy is clearly to provide evidencC for
use in a prosecution." Leach, 2012 IL 111534, ~ 133. Defendant's contention that his case falls
into those exceptions is not supported by the record.
¶ 132 The autopsy on Rico's body was not performed at the direction of the police. It was
conducted in accordance with Illinois law, which required that the county coroner or medical
examiner conduct a preliminary investigation into the circumstances of a sudden and violent death,
whether the death appears to be the result of suicide, homicide or accident. Leach, 2012 IL 111534,
¶ 126; see 55 ILCS 5/3-301:~(a) (West 2012). The autopsy was conducted by Dr. Arangelovich
later in the morning of Rico's death on June 20, 2007. Although following the shooting, defendant
was taken to the Harvey polic:, station and held there, Detective Escalante testified that he was not
originally a suspect. ASA D'Angelo's interview of defendant in which he referred to the autopsy
report took place on June 22, 2007, two da}~s later. The autopsy report did not refer to defendant
or otherwise link him to Rico's death.
¶ 133 In People v. Crawford, 2013 IL App (1st) 100310, the reviewing court determined that the
primary purpose of the autopsy in the case before it was to determine the cause of death and not to
accuse a targeted individual of criminal conduct or to provide evidence at a criminal trial.
Crawford, X013 IL App (1st) 100310, ~( 151. The defendant was not targeted in the autopsy report,

-31-

I~;o. 1-15-06? 8

and the court f.,und no evidence in the record that the police provided information to the assistant
medical examiner ~rh~ did the autopsy or the chief medical examiner who testified as to the results
of the autopsy at trial that the defendant murdered the victim. Crawford, 2013 IL App (1st) 100310,
¶ 152. Likewise, in the present case, there wds no evidence that the autopsy report targeted
defendant. While the State w•as able to use the autopsy report to support its two-shot theory as to
defendant's int;,nt to kill, there is no evidence the autopsy report was created fir any other purpose
than to report the results of the examination of Rico's body in compliance with state law.
Moreover, it was not error to have Dr. Zukariya testify in place of Dr. Arangelovich who performed
the autopsy. See People v. Brewer, 2013 IL App (1st) 07281, T 43; Cranford, 2013 IL App (1st)
100310, ¶ 151.
¶ 134 Defendant maintains that neither Leach nor its progeny dealt with a situation in which the
State used the autopsy report authored by a witness who was not available for questioning to prove
a disputed fact, i.e., that he fired more than one shot. I-~e directs this court to State v. Navarette,
294 P.3d 435 (N.M. 2013). In that case, the :~'ew Mexico supreme court held that statements in an
autopsy report where the individual suffered a violent death were testimonial. ~'~'avarette, 294 P.3d
at 441. The court determined that because the autopsy was performed as part of a homicide
investigatiun, the Statements in the report wire primarily intending to .establish some facts or
opinions with the understanding that they may be used in a homicide investigation. The court
further noted that under New :Mexico law, cases of violent, sudden or untimely death must be
reported to law enforcement and that medical examiners were required to report their findings
directly to the district attorney in all cases they have in~~estigated. Navarette, ?94 P.3d at 440-41.

-32-

No. 1-15-O6Z8

1~ 135 NavaYettc does not aid the defendant's argument since that court held that all autopsy
reports in violent death cases were testimonial. MoreovCr, the court in Lcach acknowledged the
split of opinion regarding the application of the primary purpose test to reports of forensic
testing. Nonetheless, the court in Leach concluded that "autopsy reports prepared by a medical
examiner's office in the normal course of its duties are nontestimonial. Further, an autopsy report
prepared in the normal course of business of a medical examiner's office is not rendered
testimonial merely because the assistant medical examiner performing the autopsy i~ aware that
police suspect homicide and that a specific individual might be responsible." Leach, 2012 IL
111534,' 136.
~; 136 Applying the primary purpose test set forth in Leach, we conclude that in the present case
the autopsy report was nontestimonial and was properly admitted into evidence. In addition,
there was no error in permitting Dr. Zukariya to testify to the autopsy report authored by Dr.
Arangelovich. Since we have found no error, we need not conduct a harmless error analysis.
¶ 137

IV. Ineffective Assistance of counsel

¶ 138 Defendant contends that he was denied the effective assistance of counsel where his trial
attorney failed to request that the trial court instruct the jury on the mental state of "knowingly."
~f 13 9

A. Standard of Review

¶ 140 "Where the facts surrounding the ineffective assistance claim are undisputed and the
claim was not raised below, this court's review is de novo." People v. Wilson, 392 I11. App. 3d
189, 197 (2009).
¶ 141

B. Discussion

- 33 -

No. 1-15-0628

¶ 142 In determining whether a defendant was denied the effectivC assistance of counsel, the
reviewing court applies the two-prong test s~;t forth in Strickland v. 6~Y'ashington, 466 LT.S. 668
(1980, and adopted by our supreme court in People v. Albanese, 104 Ill. 2d 504 (1980. People
v. Falco, 2014 IL App (1st) 111797, ¶ 14. "1'o prey ail on a claim of ineffective assistance of
counsel, a defendant must show that counsel's performance was deficient and that the deficient
performance prejudiced the defendant such that he was deprived of a fair trial." Falco, 2014IL
App (1st) 111797, ¶ 14. "The performance prong is satisfied if `counsel's performance was
objectively unreasonable under prevailing professional norms,' and the prejudice prong is
satisfied if there is a `reasonable probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been diffzrent.' (Internal quotation marks omitted.)." People
v. McGhec, 012 IL App (1st) 093404, ¶ 11 (quoting Pcopl~ v. Petrenko, 237 I11. 2d 490, 496
(2010)). Both prongs of the ,Strickland test mint be satisfied, or the claim fails. People v. Simms,
192 Ill. 2d 348, 362 (2000).
¶ 143 In Illinois, counsel's choice of jury instructions, and the decision to rely on one theory of
defense to the exclusion of others, is a matter of trial strategy. Falco, 2014 IL App (1st) 111797,
¶ 16. " `Such decisions enjoy a strong presumption that they reflect sound trial strategy, rather
than incompetence,' and therefore, are `generally immune from claims of ineffective assistance
of counsel.' "Falco, 2014 IL App (1st) 111797, T 16 (quoting People v. F,nis, 191 Ill. 2d 361,
378 (2000)). HowevCr, the failure to request a particular jury instruction may be grounds for
finding ineffective assistance of counsel if the instruction was so critical to the defense that
counsel's failure to request denied the defendant his right to a fair trial. Falco, 2014 IL App (1st)
111797, ¶ 16.

-34-

No. 1-15-0628

¶ 144 The jury was instructed on involuntary manslaughter (Illinois Pattern Jury Instructions,
Criminal, :~ios. 7.07 and 7.08) (4th ed. 2000) (hereinafter IPI Criminal 4th)) and the definition of
"recklessness," the mental state for that offense (IPI Criminal 4th, Nos. 5.01). Defendant
maintains that the since his mental state at the time of the shooting was the central issue in this
case, the jury should ha~~e been instructed on "knowingly," the mental state for first degree
murder so the jury would understand the difference between "knowingly" and "recklessness."
Defendant further maintains that had the jury been instructed on the definition of "knowingly," it
would have found him guilty of involuntary manslaughter rather than first degree murder. We
disagree.
¶ 145 "[T]he jury need not be instructed on the terms knowingly and intentionally because
those terms have a plain meaning within the jury's common knowledge." People v. Powell, 159
Ill. App. 3d 1005, 1013 (1987); sec IPI Criminal 4th, Nos. S.O1B, Committee Note (Committee
took no position as to whether the definition should be given routinely in the absence of a
specific jury request). Illinois courts have found that the term "knowing" "has a plain and
ordinary meaning within the jury's common knowledge, and no instruction need be given absent
the jury's request for a definition or expression of confusion." People ex rel. Ciry of Chicago v.
Le Mirage, Inc. , 2013 IL App (1st) 093547, ¶ 94 (collecting cases)..
~j 146 Def.;ndant relies on People v. Griffin, 351 Ill. App. 3d 838 (2004). In that case, the jury
was instructed on first degree murder and manslaughter as well as on the definition of
recklessness. During deliberations, the jury sent a note to the trial court asking for clarification as
the difference between knowledge and intent. The court gave the first paragraph of IPI Criminal
4th, Nos. 5.01 B, requested by the State, which dealt with knowledge in terms of the prohibited

-35-

No. 1-15-0628

conduct. Griffin, 351 Ill. App. 3d at 852. The court refused to give the second paragraph of IPI
Criminal 4th, Nos. 5.01 B, requested by the defendant, which dealt with knowledge in terms of
the prohibited result. Griffin, 351 Ill. App. 3d at 852. On appeal, the reviewing court determined
that the failure to give the second paragraph of IPI Criminal 4th, Nos. 5.01 B constituted plain
error because (1) the defendant's mental state at the time she performed the acts resulting in
death was the only contested issue; (2) the evidence as to her mental Mate was closely balanced;
and (3) especially in light of the jury's request for clarification of the mental-state issue, the
failure to correctly instruct the jury regarding the mental state of knowledge denied the defendant
a fair trial. Griffin, 351 Ill. App. 3d at 855.
¶ 147 In the present case, while defendant's mental state was the only contested issue, unlike
Griffin, the evidence as to defendant's mental state was not closely balanced. In Griffin, the
defendant was holding her infant son trying to calm him but squeezed him too tightly and he
suffocated. Other than her two-year child, the defendant was the only one present at the time of
the infant's death. Griffin, 351 Ill. App. 3d at 847. In contrast, in the present case, Duane and
Devon were present at the time of the shooting. Both men testified that they struggled to keep
defendant away from Rico and that Rico did not possess a weapon. Both Duane and Devon
testified that defendant had a gun, but neither of them confirmed that defendant had pulled out
the gun just to show Rico that he was armed for security purposes nor that there was a struggle
fur the gun. Significantly, unlike the jury in Griffin, the jury in the present case did not ask for
clarification of the term "knowingly."
¶ 148 Defendant's reliance on People v. Hohard, 232 Ill. App. 3d 386 (1992), is misplaced. In
that case, the defendant claimed he was denied the effective assistance of counsel when counsel

-36-

No. 1-15-0628

failed to request an instruction defining "recklessness." On appeal, the reviewing court agreed
and reversed for a new trial. The court acknowledged that "[a] term which is employed in a
general, nontechnical context need not be defined as tong as nothing in the instruction obscures
its meaning. This is especially true where the applicable Illinois instruction does not instruct that
an additional definition is necessary." Howard, 232 Ill. App. 3d at 392. The court noted that IPI
instruction on involuntary manslaughter "specifically refers to the definitional instruction of
`recklessness,' which should accompany it." Hoy-ard, 232 I11. App. 3d at 392. Because
recklessness to an individual might mean no more than ordinary negligence, a juror may have
chosen murder, which was the only alternative presented in that case. Howard, 232 Ill. App. 3d
at 392.
¶ 149 Unlike the IPI instruction on involuntary manslaughter, the IPI instruction on first degree
murder does not mandate that the IPI instruction defining "knowingly," should accompany it. In
fact, the committee note to IPI Criminal 4th, I~os. S.O1B states that no position was taken as to
whether the definitional instruction should be given "in the absence of a specific jury request."
IPI Criminal 4th, Nos. 5.01 B, Committee Note. :Vloreover, in Hox~ard, the reversal and remand
for a new trial were based on the cumulative effect of the State's improper closing argument and
the failure of the trial court to define the mental state of recklessness for the jury. Howard, 232
Ill. App. 3d at 392-93.
¶ 150 We conclude that defense couns~;l's failure to request that the jury receive an instruction
defining the term "knowingly" was not error. Since defendant failed to satisfy the first prong of
the Strickland test, his claim of ineffective assistance of counsel fails.
¶ 151

V. Closing Argument

-37-

No. 1-15-0628

~ 152 Defcndant contends that the State's remarks in closing and rebuttal argument denied him
a fair trial. He maintains that the prosecutor misstated the mental state for first degree murder
when he told the jury that the fact that defendant armed himself with a gun was a knowing and
intentional act. He also argues that the prosecutor's statement equating recklessness with the
scenario of a gun discharging while children were playing with it was improper argument, which
prejudiced him.
¶ 153
1( 154

A. Standard of Review
Our supreme court has not yet addressed the tension between its decisions in People v.

Wheeler, 226 Ill. 2d 92, 123 (2007) and People v. Blite, 189 Ill. 2d 99 (2000) as to whether the
de noti•o standard or the abuse of discretion standard applied to review of alleged errors in closing
arguments. The lack of clarity has resulted in diverse holdings by Illinois Appellate Court
Districts as to the appropriate standard of review. See People v. Anaya, 2017 IL App (1st)
150074, ¶ 46. Different divisions of this district have applied the de novo standard, the abuse of
discretion standard, or have resolved the issue by concluding that the holding would be the same
under either standard. See Anaya, 2017 IL App (1st) 150074, ¶ 46; People v. Sandifer, 2016 IL
App (lst) 133397; People v. Kelley, 2015 IL App (lst) 132782; Peuple v. Anderson, 407 Ill.
App. 3d 662 (2011).
~` 155 More recently, in People v. Phagan, 2019 IL App (1st) 153031,3 the Second Division of
this court concluded that the abuse of discretion standard of review applied to alleged errors in
closing argument. Phagan, 2019 IL App (1st) 153031, ~ 48. Examining the case law as far back
as 1892, the court determined that there was historical support for choosing the abuse of

3 No. 125249 People v. Phagan, leave to appeal pending, November 1, 2019 term.
-38-

No. 1-15-0628

discretion standard over the de novo standard. Phagan, 2019 IL App (1st) 153031, ~`~ 49-54. We
are persuaded by the analS~sis in Phagan, and therefore, we will apply the abuse of discretion
standard of review to defendant's allegations of error by the prosecutor in closing argument.
¶ 156

B. Discussion

¶ 157 The prosecutor has wide latitude during closing argument and may comment on the
evidence and any reasonable inference from that evidence. People v. Land, 2011 IL App (1st)
101048, ' 154. A prosecutor may not misstate the law or att,;mpt to shift the burden of proof to
the defense. People v. Carbajal, ?013 IL App (2d) 111018, ~~ 31, 34. Nonetheless, the
prosecutor's closing argument requires reversal only if the remarks created substantial prejudice
to the defendant. People v. Donahue, 2014 IL App (1st) 120163, ¶ 114. Reversal and a new trial
are warranted if the improper remarks constituted a material factor in a defendant's conviction.
People v. Smith, 402 Ill. App. 3d 538, 542 (2010). "If the jury could have reached a contrary
verdict had the improper remarks not been made, or the reviewing court cannot say that the
prosecutor's improper remarks did not contribute to the defendant's conviction, a new trial
should be granted." Smith, 402 Ill. App. 3d at 542. Remarks may be improper without creating
substantial prejudice to the defendant. Donahue, 20141E App (1st) 120163, ¶ 114. The
reviewing court considers the complained-of remarks in the context of the entire closing
arguments of both parties. Land, 2011 IL App (1st) 101048, ~( 154.
¶ 158 In the present case, the prosecutor argued to the jury:
"I submit to you, ladies and gentlemen, that is when he took a step, and he took a step to
arm himself. Cven if you can't come to that conclusion, he still had - - ~~•e know that he had
the gun on him. F,ither way, ladies and gentlemen, he was armed that night. That is

-39-

No. 1-15-0628

intentional, and that is a knowing act. That is another piece that shows you when he was
out there, he is acting with knowledge, and he is acting intentionally."
[DEFE:~ISE ATTORN~;Y]: Objection. Misstating the law.
THE COURT: Overruled."
~ 159 During the State's rebuttal argument, the prosecutor told the jury that the Stag was not
required to prove that defen.iant had a premeditated plan to kill Rico in order to establish first
degree murder and reminded them to read the jury instructions. The prosecutor continued:
"Great bodily harm - -well, seriously, folks, when you pull out a gun and point a gun
at an individual, especially an individual who is around guns, you know your actions could
cause death or great bodily harm.
[DEFE'.~1SE ATTORNEY]: Objection, Judge. That misstates the law.
THL COURT: Ladies and gentlemen, please disregard - -overruled. Excuse me,
overruled."
T 160 Defendant argues that the fact he vas in possession of a gun and pointed it at Rico was
insufficient to convict him of first degree murder. See PEople v. Ephraim, 323 Ill. App. 3d 1097,
1110 (2001) ("evidence that the defendant fired a gun, coupled with nothing more, is generally not
sufficient to prove a specific intent to kill"); People v. Banks, 192 Ill. App. 3d 986, 996-97 (1989)
(the defendant was entitled to an involuntary manslaughter instruction where he fired three shots
into the ground that ricocheted upwards and struck the victim); DiVtncenzo, 183 Ill. 2d at 252 (a
defendant may act recklessly when he commits a deliberate act but disregards the risk).
¶ 161 Nonetheless, the specific intent to kill may be inferred so long as the surrounding
circumstances show that the defendant intended the willfully committed act, which had the direct

No. 1-15-0628

and natural tcndency to destroy another's life. Eph~~aim, 323 Ill. App. 3d 1110. Here, the prosecutor
did not rely solely on defendant's possession of a gun and the fact that it went off to convince the
jury that defendant's act of shooting Rico was more than reckless. The prosecutor's argument
strove to convince the jury that the sum of defendant's actions, i.e. carrying a gun, pulling it out,
his anger at Rico and his struggle to break frec of Devon and Duane, belied his story that the gun
accidently discharged while he was showing it to Rico. The argument hibhlighted the evidence
supporting the State's theory that defendant acted either intentionally or knowingly to kill Rico or
cause him great bodily harm. We find no abuse of discretion by the trial court in overruling
defendant's objections to the complained-of statements in closing argument.
¶ 162 Defendant ackn~wl~dges that his trial attorney did not object to the following argument by
the prosecutor on rebuttal:
"This is first-degree murder. This isn't reckless and involuntary manslaughter. I mean,
kids playing around with guns, you hear it in the news all the time, when they are playing
around with guns, a gun accidently goes off and shoots someone, that's reckless."
¶ 163 Defendant argues that the prosecutor's statements led the jury to equate recklessness with
carelessness, ~•hich gave the jury no choice but to find him guilty of first degree murder. He
requests that we consider it as either plain error, ineffective assistance of counsel, or considering
the other statements properly objected to. See Wheeler, 226 Ill. 2d at 123 (statements not objected
to may add context to properly objected-to ones). To some extent, each of the analyses requested
by defendant requires error to have occurred. Therefore, we address that question first.
¶ 164 Defendant maintains that his case is very similar to People v. Buckley, 282 Ill. App. 3d 81
(1996). In Buckley, the defendant was charged with involuntary manslaughter when her infant

-41 -

No. 1-15-0628

daughter died from an overdose of medication. During closing argument and again nn rebuttal, the
prosecutor told the jury that recklzssncss meant carelessness. The reviewing court found the
prosecutor misstated the law as to the mental state for the commission of involuntary manslaughter,
noting that an act performed accidently, carelessly or even negligently was insufficient to prove or
sustain a conviction for involuntary manslaughter. Buckley, 282 Ill. App. 3d at 89. While the claim
of error had not been prc;~erved for review, the court found the evidence closely balanced and that
while error in closing argument was not usually reversible error, in this case, the court could not
state with any degree of certainty that the misstatement did not contribute to the guilty verdict. The
defendant's conviction was reversed and the case remanded for a new trial. Buckley, 282 Ill. App.
3d at 90-91.
165 Buckley does not aid defendant. In the present case, neither of the prosecutors told the jury
that def~:ndant could only be convicted of involuntary manslaughtc;r if his conduct was accidental
or careless. 'Moreover, we consider the complained-of statement in the context of the argument in
which it appeared. The prosecutor followed the complained-of statement as follows:
"Maybe shooting at the ground and then hitting the individual and killing them, that may
be reckless. But pointing a gun at somebody when you are upset, when y ou are ticked off,
and again, I mean this is how ticked off he was, you heard that from Duane. ~;~ erybody
walking across the street, he goes out of his way from the group, before they go across the
street, and as my partner stated, clearly gets the gun and then comes back. He knows he
means business in this case. He is going to show that he is the tough guy in this case. He is
going to show that he is the man in this case. This is intentionally, knowingly, playing with

-42-

No. 1-15-0628

guns, not an accident, not kids playing ~~ith guns, not a gun accidently going off. This is
first-degree murder."
~ 166 `'Ve find no error in the prosecutor's argument. The prosecutor's argument illustrated for
the jury the difference betwe,;n reckless acts and defendant's act in shooting Rico. Considering
the complained-of statement in the context ,~f the entire closing argument, we are satisfied that the
reference to children playing with a gun did not contribute to the defendant's conviction for first
degree murder rather than involuntary manslaughter.
¶ 167

VI. Vagueness Challenge

¶ 168 Defendant contends that the mandatory enhancement sentencing provision set forth in
section 5-8-1(a)(1)(d)(iii) of the Unified Code of Corrections (730 ILCS 5/5-8-1(a)(1)(d)(iii) (West
2012)) is unconstitutionally vague on its facC because it provides no objective criteria to guide trial
courts in imposing sentences. According to defendant, the failure to provide criteria in imposing
the sentencing add-ons ensures that trial courts will rely on the same aggravating factors to
determine the sentence for both the underlying murder and fir the firearm enhancement, which
encourages improper double enhancements at sentencing. Defendant acknowledges that this court
previously rejected vagueness challenges to section 5-8-1(a)(1)(d)(iii) in People v. Butler, 2013 IL
App (1st) 120923 and People v. Thompson, 2013 IL App (1st) 113105. However, he maintains
that Butler and Thompson "fundamentally misinterpreted the statute" and that Butler did not
resolve the question in the present case, i.e. ,whether the statute is unconstitutionally vague because
once the enhancements are triggered, it fails to provide objective standards necessary to avoid
arbitrary sentencing.

- 43 -

No. 1-15-06'? 8

¶ 169 All statutes are presumed to be constitutional. In r-e R.C., 195 Ill. 2d 291, 296 (2001). As
the issue of considering the constitutionality of a statute is one of law, our review is de novo.
People v. Jung, 192 Ill. 2d 1, 4 (2000). A vagueness challenge is actually a contention that the
statute violates due process because due process requires that a statute give a person of ordinary
intelligence a reasonable opportunity to know what is prohibited so that he may act accordingly.
People v. Sharp, 2015 IL App (1st) 130438, ~ 138. A statute is unconstitutionally vague if its
terms are soill-defined that their meaning will ultimat.,ly be determined by the opinions and whims
of the trier of fact rather than any objective critrria. Sharp, 2015 IL App (1st) 130438, ¶ 138.
170 Public Act 91-404 amended the penalty provisions of several statutes, including the
provisions for first-degree murder, by adding what have been referred to as the "` 15/20/25-to-life"'
provisions. People v. Sharpe, 216 Ill. 2d 481, 484 (2005 (citing Pub. Act 91-404, § 4 (eff. Jan. 1,
2000)); People v. i3~alslz, 2016 IL App (2d) 140357, ~ 19. Under those provisions, a mandatory
enhancement is added to a defendant's sentence if the defendant used a firearm in the commission
of the offense. l~'alsh, 2016 IL App (2d) 140357, ~ 19. The length of the enhancement depends
on how the firearm was us;;d. YT'alsh, 2016 IL App (2d) 140357, ~[ 19.
¶ 171 Our supreme court conclud::d in Sharpe that there was no double-enhancement problem
with the sentencing add-on, noting that while it agreed with the defendant that the degree of harm
required to invoke: the 20-to-life enhancement was inherent in the crime of murder, the
enhancement required that the harm be caused by the firearm. Sharpe, 216 Ill. 2d at 528-29.
Additionally, the court noted that the general rule against double enhancement was "merely a rule
of construction established by the court, which arises from the presumption that the legislature
considered the factors inherent in the offense in setting the initial penalty for that offense.

- 44

:~To. 1-15-0628

[Citations]. But where the legislature has made clear an intention to enhance the penalty for a
crime, even in a way which might constitute; double-enhancement, this court will not overrule the
legislature." Sharpe, 216 I11. 2d at 530. Accordingly, we reject defendant's claim that the
sentencing add-on is an impermissible double-enhancement of his sentence.
~ 172 '~'Ioreover, as defendant notes, this court has preciously considered and rejected the same
vagueness arguments raised in the present case, concluding that there was a clear and definite
scope of the sentencing range, 25-to-life, and the trial court had no discretion concerning whether
to apply the enhancement. Butler, 2013 IL App (1st) 120923, ~ 41; Thompson, 2013 IL App
(1st) 113105, ¶ 120; Sharp, 2015 IL App (1st) 13043 8, ~ 141. We also held that the standards
for imposing the enhancement were clearly defined; it must be applied when a defendant
commits first degree murder and discharges a firearm that proximately causes great bodily harm,
permanent disability, permanent disfigurement or death. Id. The trial court's discretion only
applies to the range of the sentence (Butler, 2013 IL App (1st) 120923, ¶ 41), and the court may
consider any relevant sentencing factors in imposing a firearm add-on. Y~ alsh, 2016 IL App (2d)
140357, ¶ 28. The wide range of the sentence enhancement is appropriate because it is
"impossible to predict every type of situation that may fall under the purview of the statute."
Butler, 2013 IL App (1st) 120923, ~ 41.
1J 173 In accord with the decisions in Butler and followed in Thompson and .Sharp, we hold that
the 25-years-to-life sentence enhancement is not unconstitutionally vague. See also People v.
Brown, 2017 IL App (1st) 142197, ¶ 80 (we have reviewed these very same arguments and
determined that the 25-to-life sentence enhancement is not unconstitutionally vague, and we
continue to follow those cases).

- 45 -

I~'o. 1-15-0628

~; 174

VII. Excessi~•e Sentence,

175 Finally, defendant contends that where he mane what the State agreed was a "rash decision"
during an argument ~et~ een friends who had been drinl.ing, his 50-year sentence was excessive.
Defendant, who was 24 years old at the time of the offense, contends that his sentence was a de
facto term of natural life imprisonment.
¶ 176

A. Standard of Review

¶ 177 A reviewing court will not reverse the trial court's sentencing decision absent an abuse of
discretion. People 1~. Sharp, 2015 IL App (lst) 130438, ¶ 134. Where the trial court has imposed a
sentence within the prescribed statutory limits, the reviev~~ing court will not find an abuse of
discretion unless the sentence is greatly at variance with the purpose and spirit of the law or is
manifestly disproportionate to the offense. People v. ,Means, 2017 IL App (1st) 142613, ¶ 14.
¶ 178

B. Discussion

¶ 179 Defendant w-as convicted of first degree murder, which carried a sentence between 20 and
60 years impris~~nment (730 ILCS 5/5-4.5-20(a) (West 2012)). Because he personally discharged
a firearm resulting in Rico's death, a mandatory sentencing enhancement ranging from 25 }ears to
a term of natural life imprisonment (730 ILCS 5/5-8-1(d) (iii) (West 2012)) was to be added to his
sentence for first degree murder. Defendant was sentenced to 25 years for first degree murder, five
years over the minimum sentence fur that offense, and the minimum mandatory enhancement of
25 years.
¶ 180 Defendant acknowledges that his 50-year sentence; is within the statutory limits. He argues
the trial court failed to consider that he was young and immature, that he was not beyond
rehabilitation, he had only one prior conviction and that the shooting, v~~hile tragic, was not so

-46-

No. 1-15-0628

heinous as to require the imposition of a sentence, which amounted to a de facto life sentence. He
requests that this court reduce his sentence for first degree murder to 20 years, the minimum
sentence for that offense, which would require him to serve an aggregate sentence of 45 y ears.
181 "A sentence must reflect both the seriousness of the offense and the objective of restoring
the offender to useful citizenship." People v. Vega, 2018 IL App (1st) 160619, ¶ 68. "The
seriousness of the offense, and not the mitigating evidence, is the most important sentencing
factor." Vega, 2018 IL App (1st) 160619, ¶ 68. "The trial court is in the superior position to
determine an appropriate sentence because of its personal observation of defendant and the
proceedings." Vega, 2018 IL App (1st) 160619, ¶ 68.
¶ 182 In imposing the 50-year sentence, the trial court took special note of defendant's social
history, particularly defendant's lack of family relationships. The court agreed with trial counsel's
statement that defendant had no one to teach him how to act like a man. However, the court was
troubled by the circumstances of the offense, one of "senseless, senseless violence," and telling
defendant that he "acted like a coward as far as I am concerned." In addition to the serious harm
caused by defendant's conduct, the court considered defendant's criminal history, which began
when he was age 14 with juvenile arrests for aggravated battery and assault. At age 18, defendant
was convicted of home invasion for which he received asix-year sentence and was age 22 when
he was released from mandatory supervised release. Two years later at age 24, defendant was
charged with murder in the present case. The court concluded that the sentence was necessary to
deter others from committing the same crime.

-47-

No. 1-15-0628

¶ 183 Th:, imposition of a sentence only five years more than the mandatory minimum for first
degree murder reflects that the trial court gave proper consideration to the mitigating factors and
the seriousness of the offense. The trial court's sentence was not an abuse cif discretion.
~ 184

CONCLUSION

¶ 185 For all the foregoing reasons, w~ affirm defendant's conviction and sentence.
~ 186 Affirmed.

~:~

APPENDIX B

Received: 01/10/2020

January 10, 2020
RE: People v. Taylor, Christopher
General No.: 1-15-0628
County: Cook County
Trial Court No: 07CR15069
The Court today denied the petition for rehearing filed in the above entitled cause. The mandate
of this Court will issue 35 days from today unless a petition for leave to appeal is filed in the
Illinois Supreme Court.
If the decision is an opinion, it is hereby released today for publication.

Thomas D. Palella
Clerk of the Appellate Court
c:

APPENDIX C

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 27, 2020
In re:

People State of Illinois, respondent, v. Christopher Taylor,
petitioner. Leave to appeal, Appellate Court, First District.
125746

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 07/01/2020.

Very truly yours,

Clerk of the Supreme Court

No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
CHRISTOPHER TAYLOR, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Appellate Court Of Illinois
______________________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________
NOTICE AND PROOF OF SERVICE
Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago,
IL 60601, eserve.criminalappeals@atg.state.il.us;
Ms. Kimberly M. Foxx, State’s Attorney, Cook County State’s Attorney Office,
300 Daley Center, Chicago, IL 60602, eserve.criminalappeals@cookcountyil.gov;
Mr. Christopher Taylor, Register No. R04800, Menard Correctional Center, P.O.
Box 1000, Menard, IL 62259
The undersigned, a member of the Bar of this Court, in compliance with Rules 29 and
33.2, on August 7, 2020, mailed the original and ten copies of the Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari to the Clerk of the above
Court and submitted an electronic copy using the Court’s electronic filing system. On
that same date, the undersigned personally served the same documents on opposing
counsel by delivering one copy of the Motion and Petition to an employee authorized
to accept service at each office, and mailed one copy to the petitioner by depositing it
in the United States mail, postage prepaid and addressed as above. An electronic
version was also served by email to opposing counsel. All parties required to be served
have been served.
//s// Michael C. Bennett
Michael C. Bennett
Counsel of Record

No.
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
CHRISTOPHER TAYLOR, Petitioner,
-vsPEOPLE OF THE STATE OF ILLINOIS, Respondent.
______________________________________
On Petition For Writ Of Certiorari
To The Appellate Court Of Illinois
______________________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner requests leave to proceed in forma pauperis. The Petitioner
has previously been granted leave to proceed in forma pauperis in the court below.
Counsel was appointed to represent petitioner in the court below pursuant to 725
ILCS 105/10(a).
Respectfully submitted,
DOUGLAS R. HOFF
Deputy Defender
MICHAEL C. BENNETT
Counsel of Record
Supervisor
Office of the State Appellate Defender
First Judicial District
203 N. La Salle St., 24th Floor
Chicago, IL 60601
(312) 814-5472
1stDistrict@osad.state.il.us
COUNSEL FOR PETITIONER
Of counsel:
Gilbert C. Lenz
Assistant Appellate Defender

